<html>
<title> - [H.A.S.C. No. 111-73] NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-73] 

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                     READINESS SUBCOMMITTEE HEARING

                                   ON

BUDGET REQUEST FOR MILITARY CONSTRUCTION, FAMILY HOUSING, BASE CLOSURE, 
                  FACILITIES OPERATION AND MAINTENANCE

                               __________

                              HEARING HELD

                              JUNE 3, 2009

                                     
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                  

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-667 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 
















                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
NEIL ABERCROMBIE, Hawaii             ROB BISHOP, Utah
SILVESTRE REYES, Texas               MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
HANK JOHNSON, Georgia                K. MICHAEL CONAWAY, Texas
CAROL SHEA-PORTER, New Hampshire     DOUG LAMBORN, Colorado
JOE COURTNEY, Connecticut            ROB WITTMAN, Virginia
DAVID LOEBSACK, Iowa                 MARY FALLIN, Oklahoma
GABRIELLE GIFFORDS, Arizona          JOHN C. FLEMING, Louisiana
GLENN NYE, Virginia                  FRANK A. LoBIONDO, New Jersey
LARRY KISSELL, North Carolina        MICHAEL TURNER, Ohio
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
DAN BOREN, Oklahoma
                Dave Sienicki, Professional Staff Member
                 Tom Hawley, Professional Staff Member
                     Megan Putnam, Staff Assistant

























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, June 3, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request for Military Construction, 
  Family Housing, Base Closure, Facilities Operation and 
  Maintenance....................................................     1

Appendix:

Wednesday, June 3, 2009..........................................    33
                              ----------                              

                        WEDNESDAY, JUNE 3, 2009
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
    MILITARY CONSTRUCTION, FAMILY HOUSING, BASE CLOSURE, FACILITIES 
                       OPERATION AND MAINTENANCE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Readiness Subcommittee.................................     3
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

Arny, Wayne, Deputy Under Secretary of Defense, Installations and 
  Environment....................................................     4
Calcara, Joseph F., Deputy Assistant Secretary of the Army, 
  Installations and Housing......................................     7
Ferguson, Kathleen I., Deputy Assistant Secretary of the Air 
  Force, Installations...........................................     9
Penn, Hon. B.J., Assistant Secretary of the Navy, Installations 
  and Environment................................................     8

                                APPENDIX

Prepared Statements:

    Arny, Wayne..................................................    40
    Calcara, Joseph F............................................    79
    Ferguson, Kathleen...........................................   121
    Forbes, Hon. J. Randy........................................    39
    Ortiz, Hon. Solomon P........................................    37
    Penn, Hon. B.J...............................................    96

Documents Submitted for the Record:

    [There were no Documents submitted for the record.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................   143
    Mr. Kissell..................................................   144

Questions Submitted by Members Post Hearing:

    Mr. Abercrombie..............................................   156
    Mr. Franks...................................................   157
    Mr. Ortiz....................................................   147
FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST FOR 
    MILITARY CONSTRUCTION, FAMILY HOUSING, BASE CLOSURE, FACILITIES 
                       OPERATION AND MAINTENANCE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                           Washington, DC, Wednesday, June 3, 2009.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon P. Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. This hearing will come to order, but before we 
do that I talked to some members, and I thought that it would 
be appropriate to have a moment of silence for those that 
perished in that French flight from Brazil going to Paris.
    And if we could just take a moment of silent prayer 
honoring those and remembering those who perished, there was a 
couple, an American couple who were on that flight. If we just 
take a moment of silence.
    [Moment of silence.]
    I thank our distinguished witnesses for appearing before 
this subcommittee today. Today the Readiness Subcommittee will 
hear about our military construction and Base Closure and 
Realignment (BRAC) programs. In general, I am pleased with the 
budget request this year.
    I think they have done a good job of advancing a number of 
important initiatives including fully funding the BRAC 2005 
process and providing the infrastructure to support our growing 
force and re-capitalizing on an aging infrastructure.
    However, I am also concerned about the trends that I see 
within the Department of Defense. First of all, in the BRAC 
2005 process I am disturbed about the apparent cost escalation 
over the past few years. Since the Department submitted the 
first budget request to implement the findings of BRAC 2005 
commission, the cost to implement this program have almost 
doubled to $34 billion.
    While a variety of reasons have been attributed to this 
growth, I believe the assumptions underlying the 2005 BRAC 
recommendations were flawed. The department has indicated that 
its analysis of the BRAC recommendation were based on 
consistent planning assumptions.
    Unfortunately, those planning assumptions were completely 
inadequate. This type of bad cost data leads us to make bad 
decisions. I am also concerned about whether we can meet the 
statutory completion date of September 2011. I am concerned 
that the shortcuts may be taken and money may be wasted in an 
attempt to meet the deadline.
    It is important that the department take a critical look at 
this program and review the implementation timelines to ensure 
that government waste is eliminated and artificial acceleration 
initiatives are avoided.
    We owe the men and women of our Armed Services and the 
taxpayers of this Nation the very best BRAC implementation plan 
that smoothly relocates forces in strict compliance with the 
BRAC decisions.
    On another subject, I wanted to discuss strategic 
realignment of United States forces in the Pacific. The most 
pressing issue relates to Marine Corps from Okinawa to Guam. In 
Guam alone we are expecting more than $10 billion in 
construction in the next few years. It is important to note 
that Guam is not the only expanding location.
    Included in this realignment is the expansion of forces to 
the Futenma replacement facility at Camp Schwab in Okinawa. I 
believe it is important to get both of these decisions right 
and to make sure our long-term relation with our Pacific 
partners remain vibrant and viable for the foreseeable future.
    Let me turn our attention to another equally important 
subject, the basing of aviation assets. I understand the 
department is facing a number of basing decisions this year. 
The most expansive involves the Joint Strike Fighter (JSF). The 
Air Force alone is to determine the location of four 
operational JSF bases and one additional pilot training center.
    The problem is that the Joint Strike Fighter is much louder 
than the F-15, F-16 and F-18 aircraft. In the basing of future 
aviation assets the department is to take great caution in 
balancing the needs of the armed forces with the competing 
requirements of expanded local communities.
    A long-term outlook needs to be taken into account to 
ensure that the Nation has a viable, unencumbered aviation 
infrastructure that fully supports the missions of the armed 
forces.
    Finally, I remain concerned about the continued 
underfunding of the sustainment of our military infrastructure. 
Funding only 90 percent of the Navy's requirement is short-
sighted and only raises costs over the long term.
    This chronic underfunding for infrastructure will remain a 
critical issue of interest for this subcommittee. We can do 
better, and I look forward to working with the department to 
making this a reality. Gentlemen, I think that we have a lot to 
discuss today and I look forward to hearing you address these 
important issues.
    The chair recognizes my good friend, the distinguished 
gentleman from Virginia, Mr. Forbes, for any remarks he would 
like to make.
    Mr. Forbes.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 37.]

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
        VIRGINIA, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Forbes. Thank you, Mr. Chairman, and I just, again, 
appreciate your leadership in holding this hearing. And I also 
want to thank the witnesses and appreciate each of them being 
here today to discuss building and maintaining the best 
possible facilities for our troops, whether at home or deployed 
and their families.
    And I want to just pause a moment and sincerely thank you 
for what you have done. You have made some enormous strides and 
oftentimes we are so focused in the limited amounts of time 
that we have on where we are going tomorrow that we really 
don't step back and just say how much we appreciate what you 
have done and how you have gotten us to this point.
    So I want to make sure I am thanking you for that, but then 
Mr. Chairman, I am a bit frustrated with the budget the 
department has submitted. And while we need to hold this 
hearing in preparation for our subcommittee markup next week, 
we have been given incomplete information at best.
    And while it is not the fault of any of our witnesses, 
transparency has certainly not been an adjective describing 
this budget process and we can and must do better.
    It is difficult enough to properly consider a complex 
military construction budget under our compressed schedule, 
worse, we have no Future Years Defense Plan or FYDP to help us 
understand future intent.
    Finally, most disturbing, major Defense Department 
decisions announced after the budget was locked will require 
budget adjustments and detail on these adjustments is still not 
available, at least not available to us.
    And while understandable to some degree in a new 
administration, many large decisions have been pushed to the 
quadrennial defense review or QDR, leaving us in a quandary 
about what is real and what is changed in the budget request.
    For example, the Secretary of Defense's recent decision to 
limit the Army's Brigade Combat Team (BCT) growth to 45 rather 
than 48 brigades calls into question the Army's military 
construction program. Even though the Army finally identified 
the brigades that will be lost, the ultimate BCT footprint is 
still undetermined pending QDR review of re-stationing two BCTs 
from Europe.
    The reality is that the Army cannot articulate with any 
precision how the fiscal year 2010 budget request should be 
adjusted. In addition, the Deputy Secretary of Defense delayed 
the Navy's earlier recent decision to home port a nuclear 
aircraft at Mayport, Florida, pending the outcome of the QDR.
    While I support the department's review of the decision, 
the Navy still has requested funding that could be used in 
furtherance of making Mayport a carrier home port.
    It is difficult for me to support a legitimate request to 
have another East Coast port in a storm when I know that it 
could be used as a down payment for the unnecessary expense of 
making Mayport a nuclear carrier home port.
    There are equally vexing unresolved issues involved in the 
basing of Joint Strike Fighter squadrons around the United 
States due to pending environmental reviews. The Marine Corps 
realignment from Okinawa to Guam and the department's 
brinkmanship on completing BRAC moves in a number of sites.
    This budget also defers a number of land acquisition 
challenges. Even without a FYDP we know the Navy wants an 
outlying landing field for Oceana-based aircraft squadron. The 
Army wants to acquire more training land in Colorado and the 
Marine Corps intends to acquire large tracts adjacent to 
Twentynine Palms Marine base in California.
    Each of these actions is important for the readiness of 
Army, Navy and Marine Corps units and each comes with 
considerable public concern or opposition. All of these 
acquisition and basing issues are sensitive national security 
and local matters, requiring the considered judgment of 
Congress in possession of all of the facts.
    But we don't have the facts, nor do we have transparency. 
Instead we are asked to approve a budget and funding decisions 
that will be revisited during the QDR. Mr. Chairman, I think it 
is fair to expect that we will make modifications to this 
request unless today's witnesses are prepared to resolve some 
of the questions I have posed.
    Our constituents rightfully expect us to understand the 
consequences of budgets we approve and I don't believe we have 
what we need to approve this request. But once again, to all of 
our witnesses, we recognize the great job you have done up to 
this point. We thank you so much for that.
    Mr. Chairman, once again, I just thank you for your 
leadership and your direction and I yield back the balance of 
my time.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 39.]
    Mr. Ortiz. Thank you. Today we have a panel of 
distinguished witnesses representing the department and again 
thank you so much for your service.
    Our witnesses include Mr. Wayne Arny, Deputy Under 
Secretary of Defense for Installations and Environment, the 
Department of Defense, Mr. Joseph Calcara, Deputy Assistant 
Secretary of the Army Installations and Housing and the 
Honorable B.J. Penn, Assistant Secretary of the Navy, 
Installations and Environment and Ms. Kathleen Ferguson, Deputy 
Assistant Secretary of the Air Force, Installations.
    We thank you for being with us today. And without objection 
the witnesses' prepared statements will be accepted for the 
record.
    Secretary Arny, so good to see you again, sir. You still 
look like a young pilot.
    Mr. Arny. Not any more.
    Mr. Ortiz. Without objection, of course, we now will begin 
and Secretary Arny. Welcome and you can begin your testimony 
whenever you are ready.

  STATEMENT OF WAYNE ARNY, DEPUTY UNDER SECRETARY OF DEFENSE, 
                 INSTALLATIONS AND ENVIRONMENT

    Mr. Arny. Thank you sir. Thank you, Mr. Chairman, 
Congressman Forbes, distinguished members of the subcommittee. 
I am honored to appear before you today and with your 
permission, I will submit the full statement for the record.
    From the last 10 years the Department has come a long way 
in improving the facilities and the infrastructure in which our 
military and civilian workforce and families work and live. We 
could not have progressed as far as we have without the 
continuing support of Congress and in particular the support of 
this subcommittee.
    Today, we manage over 500,000 facilities worth over $700 
billion located in approximately 29 million acres of land 
around the world. In comparison, about 10 years ago we had 
115,000 more facilities in our inventory, which is in part a 
testimony to our continuing efforts to right-size the 
department's infrastructure.
    The principal program that has helped us balance the 
infrastructure is the BRAC Authority and using that we have 
been able to close over 121 major installations and realign 79 
major bases after five rounds. The 2005 decisions alone affect 
over 800 locations and include 24 major closures, 24 major 
realignments and 765 lesser actions.
    However, it is not just enough to have closed bases and 
moved functions. At the same time, we tried to focus on how we 
conduct business so as to become more efficient caretakers of 
the taxpayers' money. An excellent example of our efforts 
toward efficiency is joint basing.
    As part of BRAC 2005, we were required to form 12 new joint 
bases from 26 existing locations so that installation 
management functions will be provided by one component, not two 
or three as it is currently.
    The joint basing implementation process is complicated and 
almost 50 different areas of responsibilities on these bases 
have been identified for consolidation including food services, 
environmental management, child and youth programs, facility 
maintenance and many more.
    But I can report to you that it is well on the way to 
achieving success. In January 2008 we began issuing a series of 
joint basing implementation guidance documents and for the 
first time established a set of common definitions and 
standards for installation support to be provided by each joint 
base.
    We established a schedule that divides the 12 planned joint 
bases into two implementation phases. Five joint bases 
involving 11 installations replaced into phase one with an 
October 2009 milestone for full implementation, which includes 
the transfer of personnel and funds to the joint base 
commander.
    The remaining seven bases involving 15 installations were 
placed into phase two with an October 2010 full implementation 
and that is on track. And this is just the beginning of where I 
see the department and the application of common output levels 
of service to provide consistent and superb support to our 
service members at every installation.
    As for housing, a decade ago we were maintaining over 
300,000 family housing units, two-thirds of which were deemed 
to be inadequate by the military departments. With your help 
and vision we put housing privatizations in place, and the 
private sector responded by delivering modern, affordable 
housing.
    With this year's request, over 98 percent of the Department 
of Defense's (DOD's) housing inventory in the United States 
will be funded for privatization. The military services have 
leveraged DOD housing dollars by 10 to 1 with $2.5 billion in 
federal investments generating $25 billion in housing 
development at privatized installations.
    With regards to barracks, it was about 17 years ago that 
the military departments began an ambitious modernization 
program to increase the privacy and amenities in permanent 
party bachelor housing. Using the military construction funding 
and a traditional government-owned business model much progress 
has been made but there still is a need for almost $15 billion 
to complete the permanent party buyout.
    Privatized housing has unique--one of the ways we are 
looking at this is through privatizing bachelor housing, which 
has unique challenges compared to family housing. But if we 
start viewing these buildings more as on-base apartments 
instead of unique military training or operating facilities, 
the private sector will see the potential for a new economic 
niche in which both they and the department can come out 
winners.
    We have seen recent innovative concepts where the Army has 
added bachelor office quarters and senior enlisted bachelor 
quarters to its existing family housing privatization projects 
at Fort Bragg, Fort Stewart, Fort Drum, Fort Irwin, and a fifth 
is planned for Fort Bliss.
    In contrast, the Army and the Navy is mainly focusing its 
unaccompanied housing privatization to bring shipboard junior 
enlisted sailors ashore using a special pilot authority. The 
first unaccompanied housing, privatization pilot project was 
awarded in December 2006 to San Diego. The second in 2007 in 
Hampton Roads, and a third is under consideration for Mayport 
and Jacksonville.
    Both of the awarded pilot projects for the Navy have 
demonstrated that with the authority to pay junior enlisted 
members less than full housing allowance, privatization of 
single junior enlisted personnel is less costly on a lifecycle 
basis than the traditional government-owned model.
    I view this as just a starting point, and ask for the 
subcommittee's support in the department's continued progress 
in shifting toward this way of thinking. This year's budget 
signals yet another banner year for installations with about 
$23 billion in military construction and about $8 billion in 
facility sustainment, restoration and modernization.
    At $23 billion, the military construction program is very 
robust, especially compared to the $8 to $9 billion levels we 
were receiving 10 years ago. Similarly our sustainment budget 
is also more robust as compared to 10 years ago.
    Recapitalization has been more of a challenge. We moved 
from believing a single recap rate expressed in years applied 
across myriad category sources could provide funding levels 
that was rational or defendable.
    When I was in the Navy Secretariat, I personally observed 
the inaccuracy of the recap rate as Hurricane Ivan hit 
Pensacola. The sudden infusion of restoration funds skewed the 
recap rate for Navy to a lower number than the targeted 67 
years, yet the condition of the rest of the Navy facilities 
across the board did not improve.
    I was dissatisfied with that 67-year metric and I asked my 
staff to go back to the basics and open the dialogue on the 
facility condition indices that are already mandated for DOD in 
real property records. These quality ratings or Q-ratings 
represent the health of our facilities and I believe they have 
been long ignored.
    This summer my staff will be working closely with the 
military departments and defense agencies to set up program 
guidelines for determining which facilities require priority 
for funding, reassessing how Q-ratings are conducted and their 
frequency and most importantly reestablishing how the 
department views and uses master planning at the installation 
level.
    Also, and equally important, in cooperation with our policy 
secretariat, the joint staff, the combatant command and the 
services, we hope to initiate joint installation master plans 
at each overseas combatant command region.
    In closing, Mr. Chairman, I sincerely thank you for this 
opportunity to highlight our management of installation assets. 
Thank you.
    [The prepared statement of Mr. Arny can be found in the 
Appendix on page 40.]
    Mr. Ortiz. Thank you so much.
    Secretary Calcara.

 STATEMENT OF JOSEPH F. CALCARA, DEPUTY ASSISTANT SECRETARY OF 
              THE ARMY, INSTALLATIONS AND HOUSING

    Mr. Calcara. Thank you, Mr. Chairman. Good morning, Mr. 
Forbes, members of the committee. I too am honored to be here 
today to present details on our fiscal year 2010 budget. We 
continue on in the largest transformation in Army history. The 
fiscal year 2010 budget does represent for us the second half 
of the home stretch to complete all our transformation under 
base realignment and closure, military construction, Grow the 
Army and the Army modular force.
    I know there has been a challenging year for all of us. The 
dynamics with the budget schedule and you have asked us to 
address in detail the impacts from recent force structure 
decisions. We are planning tomorrow to have a detailed session 
with committee staff to go line item-by-line item project.
    Let me just briefly cover for you the top line story in my 
opening remarks. We have about $1.4 billion in the program tied 
to the Grow the Army initiative. As you know, yesterday we 
publicly disclosed our decisions on how we were going to apply 
those changes to the budget.
    I want you to know it was not a simple process. We have 
worked diligently and deliberately over the last several weeks 
to make sure that every nickel was looked at from both an 
investment and a capabilities perspective. We are confident 
that the solution that we will propose is exactly what is right 
for the Army and right for the Nation at whole.
    Of the $1.4 billion that is in the Grow the Army wedge in 
the fiscal year 2010 program, approximately half of it is not 
tied to the brigade configuration. It is tied to combat support 
and combat services support. Of the remaining half of that 
wedge, about half of that is tied to reserve and housing, 
again, not connected to the Grow the Army decision.
    So we are basically talking about 25 percent of the $1.74 
billion that is in that budget roll out that needed to be 
looked at for reinvestment use. Our plan is to take those 
dollars and buy down capacity shortages that we had from the 
other brigades that we built in the 45 total.
    We also plan to buy out our relocatables sooner because you 
have been telling us that is the right thing to do. So that is 
essentially the impacts of the BCT decisions on a macro level. 
Tomorrow you will cross walk one-by-one through them.
    We think it is the right thing to do to get our capacity 
back, to get our relocatables quicker. There is a business case 
for that and the rest of the budget holds. Otherwise, I look 
forward to your questions. Thank you.
    [The prepared statement of Mr. Calcara can be found in the 
Appendix on page 79.]
    Mr. Ortiz. Secretary Penn, good to see you again, sir. 
Whenever you are ready for your testimony, go ahead, sir.

 STATEMENT OF HON. B.J. PENN, ASSISTANT SECRETARY OF THE NAVY, 
                 INSTALLATIONS AND ENVIRONMENT

    Secretary Penn. Thank you sir. Chairman Ortiz, 
Representative Forbes, members of the subcommittee, it is a 
privilege to come before you today to discuss the Department of 
the Navy's installation efforts. I would like to touch on a few 
highlights in the department's overall facilities budget 
request, a very healthy $14.4 billion or 9.2 percent of the 
department's Total Obligational Authority (TOA).
    In Military Construction (MILCON) fiscal year 2010 
continues the Marine Corps' Grow the Force initiative with a 
$1.9 billion investment targeted primarily at infrastructure 
and unit specific construction required to move Marines from 
interim facilities and provide adequate facilities for new 
units.
    The fiscal year 2010 MILCON budget also provides funds for 
the first 5 construction projects to support the relocation of 
Marines from Okinawa to Guam in the amount of $378 million.
    Our fiscal year 2010 budget request complies with the 
Office of Management and Budget (OMB) policy and the DOD 
financial management regulation that establishes criteria for 
the use of incremental funding.
    The use of incremental funding in this budget has been 
restricted to the continuation of projects that have been 
implemented in prior years. Otherwise, all new projects are 
fully funded or are complete and usable phases.
    In family housing, our budget request of $515 million 
reflects the continuation of investment funding for locations 
where we still own and operate military family housing and 
where additional privatization is planned.
    Prior requests reflect a conservative program to address 
additional housing requirements associated with Marine Corps 
force structure initiatives. The Navy and Marine Corps have 
privatized virtually all family housing located in the United 
States.
    Where we continue to own housing at overseas and foreign 
locations, we are investing in a steady state recapitalization 
effort to replace or renovate housing where needed. Our request 
also includes funds necessary to operate, maintain and lease 
housing to support Navy and Marine Corps families located 
around the world.
    Regarding legacy BRAC, we continue our request for 
appropriated funds in the amount $168 million as we exhausted 
all land sale revenue. We have disposed of 93 percent of the 
prior BRAC properties, so there is little left to sell and the 
real estate market is not as lucrative as it was several years 
ago.
    We expect only limited revenue from the sale of Roosevelt 
Roads in Puerto Rico and other small parcels. With respect to 
the BRAC 2005 program, our budget request of $592 million 
represents a shifting emphasis from construction to outfitting 
and other Operation and Maintenance (O&M) costs. One success 
story I would like to highlight comes from New Orleans which 
still struggles to recover from the aftermath of Hurricane 
Katrina.
    We entered into a 75-year leasing arrangement agreement 
with the Algiers Development District in September of 2008. In 
exchange for leasing 149 acres of naval support activity in New 
Orleans, the headquarters Marine Forces Reserve will receive 
approximately $150 million in new facilities.
    Demolition began recently and we have established temporary 
quarters for the commissary so that military personnel, 
retirees and their families still have access to the quality of 
life service during construction.
    We continue to work with Algiers Development District to 
ensure this partnership's successful outcome. We have been able 
to hold down our cost increases to a modest 2 percent for the 
implementation period of fiscal year 2006 through fiscal year 
2011.
    We have made significant progress in the past year in 
planning for the relocation of Marines from Okinawa to Guam. 
The environmental impact statement for Guam is underway with a 
targeted record of decision in time for construction in fiscal 
year 2010.
    The government of Japan ratified the international 
agreement on 13 May, 2009 and appropriated $336 million, fiscal 
year 2008 equivalent dollars, to complement our own investment 
for fiscal year 2010. We expect to see Japan's contribution 
deposited in our treasury by July.
    Finally, it has been an honor and privilege to serve this 
great nation and the men and women of our Navy and Marine Corps 
team, the military, civilian personnel and their families. 
Thank you, this committee, for your continued support and 
opportunity to testify before you today.
    [The prepared statement of Secretary Penn can be found in 
the Appendix on page 96.]
    Mr. Ortiz. Thank you, Mr. Secretary.
    Secretary Ferguson, it is good to see you. And you can 
begin with your testimony, ma'am.

 STATEMENT OF KATHLEEN I. FERGUSON, DEPUTY ASSISTANT SECRETARY 
                OF THE AIR FORCE, INSTALLATIONS

    Ms. Ferguson. Thank you, Mr. Chairman, and Congressman 
Forbes and distinguished members of the committee. On behalf of 
America's airmen, it is my pleasure to be here today. I would 
like to begin by thanking the committee for its continued 
support of your Air Force and the thousands of dedicated and 
brave airmen and their families serving our great nation around 
the globe.
    Today more than 27,000 airmen are currently deployed in 
support of ongoing operations in Iraq, Afghanistan, the Horn of 
Africa and many other locations, daily demonstrating their 
importance in support of joint combat operations.
    Within the Secretariat for Installations and Environment 
and Logistics, we fully appreciate the impact our efforts have 
in support of these airmen and how it affects their ability to 
positively influence our Air Force's war fighting abilities and 
capacity to counter hostile threats.
    Military construction, family housing and BRAC programs 
form the foundation of our installation structure. Our 
installations serve as the primary platforms for the delivery 
of global vigilance, reach and power for our nation, and our 
fiscal year 2010 investments reflect a direct connection to 
this vital work.
    As we continue to focus on modernizing our aging weapons 
systems we recognize that we cannot lose focus on critical Air 
Force infrastructure programs. Our fiscal year 2010 president's 
budget request of $4.9 billion for military construction, 
military family housing, BRAC and facility maintenance is a 
reduction from our 2009 request of $5.2 billion.
    This reflects an increase in MILCON and fact of life 
reductions due to the anticipated completion of the housing 
privatization and BRAC 2005 round implementation.
    Using an enterprise portfolio perspective we intend to 
focus our limited resources on the most critical physical plant 
components by applying demolition and space utilization 
strategies to reduce our footprint, aggressively pursue energy 
initiatives, continue to privatize family housing, and 
modernizing dormitories to improve quality of life for our 
airmen.
    In regards to military family housing, our master plan 
details our housing MILCON, operations and maintenance and 
privatization efforts. Since last spring we have completed new 
construction or major improvements on more than 2,000 units in 
the United States and overseas, with another 2,286 units under 
construction in the U.S. and almost 3,000 units under 
construction overseas.
    Our fiscal year 2010 budget request for military family 
housing is just over $567 million. The Air Force request for 
housing investment is $67 million to ensure the continued 
improvement of our overseas homes. Our request also includes an 
additional $500 million to pay for operations, maintenance, 
utilities and leases for the family housing program.
    At this point I would like to address our efforts in 
support of base realignment and closure. BRAC 2005 impacts more 
than 120 Air Force installations. Unlike the last round of BRAC 
where 82 percent of the implementation actions affected the 
active Air Force, in BRAC 2005, 78 percent of implementation 
actions affect the Air National Guard and Air Force Reserve.
    In fact the Air Force will spend more than $478 million on 
Air National Guard and Air Force Reserve BRAC MILCON projects. 
The Air Force total BRAC budget is approximately $3.8 billion 
in which the Air Force is fully funded.
    Our fiscal year 2010 BRAC 2005 budget request is 
approximately $418 million and less than 20 percent of that is 
for BRAC MILCON projects. I would like to emphasize the Air 
Force BRAC program is on track to meet the September 2011 
deadline. Air Force MILCON, family housing and BRAC initiatives 
will continue to directly support Air Force priorities.
    It is imperative we continue to manage our installations by 
leveraging industry best practices and state-of-the-art 
technology. Our civil engineering transformation efforts, now 
entering the third year, continue to produce efficiencies and 
cost savings that enhance support for the war fighter, reduce 
the cost of installation ownership and free resources for the 
recapitalization of our aging Air Force weapons system.
    More importantly, these investments reflect effective 
stewardship of funding designed to serve our airmen in the 
field, their families and the taxpayer at home. Mr. Chairman 
and Congressman Forbes, this concludes my remarks.
    Thank you and the committee once again for your continued 
support of our airmen and their families. We look forward to 
your questions.
    [The prepared statement of Ms. Ferguson can be found in the 
Appendix on page 121.]
    Mr. Ortiz. Thank you so much. I see that we have a 
tremendous turnout of members this morning. It is either that 
things are going so well, or maybe they are not, and I am 
pretty sure that they may have a lot of questions.
    I am going to be brief. I am going to ask one question and 
then I want to allow the members of this committee. I want to 
give them a chance.
    I know I have met with some of the freshman members, they 
say, ``Oh, my, it takes a long time, before you get down to the 
front, for them to ask a question.'' But I want to ask 
Secretaries Penn and Ferguson, I know you will be starting the 
process to determine the location of a variety of aviation 
assets, including the Joint Strike Fighter.
    As you are aware, the Joint Strike Fighter is pretty, 
pretty loud and there are people who like the sound of freedom 
and there are other people who are not too happy with the loud 
noise. Could you explain how the noise associated with the 
Joint Strike Fighter would influence basing decisions and 
whether these communities have been contacted?
    Also, can you explain to this committee how Joint Strike 
Fighter basing criteria, included in the House report to the 
2008 defense authorization bill, would be incorporated into 
those basing decisions?
    Secretary Ferguson or Penn, whichever is ready, we will 
give you the opportunity to respond to that question.
    Ms. Ferguson. I can answer the Air Force section.
    Mr. Ortiz. If you could you get a little closer to the 
mike, so that----
    Ms. Ferguson. Okay, here we go. Based in part with what we 
saw as we bedded down--tried to bed down the Joint Strike 
Fighter at Eglin and the noise issues associated with that, the 
Chief of Staff of the Air Force and Secretary Donnelly asked us 
to look at doing enterprise-wide work for the basing of the 
Joint Strike Fighter across the United States Air Force.
    Back in February we accomplished a rapid improvement event 
where we looked internally in the Air Force how we made basing 
decisions and a couple of results came out of that and we are 
implementing those right now.
    One of which was to stand up a robust debasing shop within 
the Air Force, and we had lost some of that as we had gone 
through the previous round of BRAC. We had lost some of that 
capability and we are now going to build that back up.
    The second thing we have done is stood up an Air Force 
senior basing executive steering group which I chair. And we 
have cross-functional representation across the Headquarters 
Air Force (HAF), at the general officer level that oversees the 
basing process for the Air Force at the strategic level.
    One of the objectives for the Chief of Staff and Secretary 
was for the Air Force to have a defendable, repeatable, 
transparent process as we worked through basing, not just for 
the Joint Strike Fighter, but for all weapons systems across 
the Air Force.
    Where we are right now specifically with the JSF--in fact 
tomorrow morning, I have a briefing where Air Combat Command is 
the lead to the JSF bed-down process. We will come in and 
embrace the executive steering group on proposed criteria to 
bed that down.
    We brief the Chief and Secretary on that proposed criteria 
at the end of June. And then that criteria will be applied 
across the inventory of installations across the United States.
    As part of that criteria, we expect there will be some 
consideration for noise and mission capabilities, mission 
requirements. And then we will get that criteria over to the 
committee once that is approved by the Chief and Secretary.
    Mr. Ortiz. Secretary Penn.
    Secretary Penn. Yes, sir, we have been working closely with 
the Air Force. They are leading the noise analysis for us and 
the facilities that we are looking at or we are seeing thus far 
in the Navy are those that are really not in a populated area. 
They are really quite isolated, so I am thinking that is going 
to be good.
    We have looked at the noise from day one, and it is very 
difficult to get the noise specifications on the aircraft. It 
is a lot more noisy than the tactical aircrafts that Mr. Arny 
and I are used to, but we are working so that we will try not 
to infringe on the areas around the bases.
    Mr. Ortiz. Thank you. Now, I yield to my good friend, Mr. 
Forbes, and I would like to see all the members who are here 
with us today be able to ask questions this morning.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. I am going to try to 
keep my questions relatively brief, to again, thanking you all 
for what you have done and for being here today.
    And I am going to address these questions to Mr. Arny and 
Mr. Penn, and I want to preface it by saying, when Secretary 
Gates was here, he indicated that we could ask for everybody's 
personal opinions, and we didn't have to just get department 
opinions or what was there.
    So I wanted to address mine under the caveat that I would 
like for your personal opinion on this issue, because we 
respect the totality of evidence and experience each of you 
bring to the table.
    But the Navy's fiscal year 2010 unfunded requirements list 
includes a shortfall of $395 million for aviation and ship 
depot maintenance. Now, we have heard a lot of people say that 
that shortfall is much greater than that. The aviation 
shortfall is bouncing all over the place depending on which day 
we see it. It is either 120 planes and the next day it may be 
more than double than that.
    Second thing, ship depot maintenance, last year we are 
looking at maybe $120 million, this year we are talking about 
upwards of $400 million, but whatever. The official list is 
$395 million for aviation ship depot maintenance.
    In light of such critical maintenance requirements, do you 
think it is justified to put $76 million, a fourth of the total 
amount that we have in there, on infrastructure improvements 
for Mayport on a project that we are being told hasn't even 
been approved yet?
    Secretary Penn. Yes, sir, I do. First the MILCON that we 
have for Mayport is for two projects, Pier Charlie 1 where we 
put the small boys is deteriorating. I was in Mayport a couple 
of weeks ago, and at this time we cannot drive a truck up to a 
ship that is berthed at Charlie 1 to offload supplies because 
the piers had sink holes in it and everything else.
    At this time, we have to park the vehicles where we are 
loading supplies on the ships, that is Charlie 1 about 50 feet 
away, crane them across to the ship because of that 
inconvenience, which is a real hardship on everyone concerned.
    As I say, there are two projects. Second, in regards to the 
outcome on the QDR on the carrier, we need to be able to 
transient. We need to put a carrier into Mayport for transient. 
We are not going to use the home porting now. We get the 
message, no home porting of a carrier in Mayport, but to be 
able to put a carrier into Mayport we have to dredge it.
    The nuclear carriers, as you know, have different 
requirements, different depths, and that is what we are 
striving for.
    Mr. Forbes. Mr. Arny?
    Mr. Arny. I concur with Mr. Penn. I was stationed on a 
conventional carrier out of Mayport, and due to a maintenance 
accident, some of our maintenance people installed a pump 
backwards, and the ship sank at the pier and didn't go down 
very far.
    So to bring nuclear carriers in, to have the right safety 
for supply and re-supply, you need to have the dredging done. 
And Mr. Penn is right, the pier, apparently, is falling down, 
whether you station a carrier there or not or whether you--just 
for--that is more a maintenance of the facility rather than for 
a specific ship.
    Mr. Forbes. When you are talking about the $76 million that 
has been allocated in, though, it would be fair to say that 
most of the dredging project and pier work would only be needed 
if you were trying to put a nuclear carrier in there. Is that 
not correct?
    Secretary Penn. Not for the pier work, sir.
    Mr. Forbes. How much would the pier work be Mr. Penn?
    Secretary Penn. Yes, the pier work alone is $30 million.
    Mr. Forbes. It is $30 million.
    Secretary Penn. Yes, sir.
    Mr. Forbes. And what about the remaining $46 million? Would 
that be to dig the ditch?
    Secretary Penn. Yes, sir, that is for the ditch.
    Mr. Forbes. Well the reason I ask that is because, you 
know, basically we know that there are some of these needs. The 
aviation needs--this 100 percent need that we have there we 
know that there is a 100 percent need for the depot 
maintenance. I think both of you would agree on that.
    And the last question I will just ask you is this. Most of 
the concern that has been expressed about needing to do that 
dredging and get the nuclear carrier in that port was based on 
the fact that we would only have one naval base capable of home 
porting a nuclear carrier that has access to the Atlantic 
Ocean, and that a natural disaster terrorist attack has shut 
down the Norfolk's naval facility.
    And so the question I would ask you is what risk assessment 
has been given to you, and who has given it to you that 
outlines the risk that such an attack would take place? And if 
you could just contrast that with the fact that we know we have 
a 100 percent need for the aviation shortfall and a 100 percent 
need for the depot maintenance shortfall.
    In other words have you ever asked what that risk 
assessment is? Is it a 10 percent risk, 5 percent risk, 20 
percent risk? Who gave you the risk assessment, and what was 
that risk assessment?
    Secretary Penn. Sir, I think it is very difficult to 
quantify a risk assessment, either manmade or natural.
    Mr. Forbes. Did you ever ask for it?
    Secretary Penn. I have. I have asked my own staff for it. I 
haven't gone to the Navy and asked the operators for it.
    Mr. Forbes. Did you ask the admiral that did the strategic 
dispersal plan, the one that we based the need to move the 
carrier and having a second port?
    Secretary Penn. I did not. No, sir.
    Mr. Forbes. Do you know of anyone in the department that 
did?
    Secretary Penn. We will have to get back to you on that. I 
did not know. I would have to check, sir.
    [The information referred to can be found in the Appendix 
on page 143.]
    Mr. Forbes. If I told you that the admiral said that no one 
has ever asked him for that risk assessment. Would that be 
contrary to any evidence that you have to rebut that?
    Secretary Penn. I will have to get back to you on that 
because he has a large staff working for him and, you know, 
sometimes we go with the Action Officer (AO) level to get 
responses.
    Mr. Forbes. But normally he would know if that question had 
been asked of his staff or to him, wouldn't he?
    Secretary Penn. Not necessarily, sir.
    Mr. Arny. Not necessarily.
    Mr. Forbes. Okay. Then Mr. Arny, do you know of anyone who 
has ever asked that question?
    Mr. Arny. No, I do not.
    Mr. Forbes. And I would just finally ask you, don't you 
think it would help to have asked what the risk assessment was? 
In other words we might have a meteor that falls out of the sky 
tomorrow, but we aren't putting money in the budget to cover 
that because we don't think the risk is very high. And I will 
just tell you that when I asked him if anyone had ever asked 
him that question, his answer to me was no.
    And second, when I asked him if he could quantify that 
risk, he said it would be very, very small, less than 10 
percent. And so my just comment to you is that when we are 
looking at situations where budgets seem to be driving our 
defense strategy.
    And I know we can argue whether that is true or not. It 
just doesn't make much sense to me when we are taking 25 
percent of the cost, that we basically know we need the 
aviation shortfall and for depot maintenance, and we are 
putting it to a situation where the admiral that writes the 
strategic dispersal plan will tell us that it is less than a 10 
percent chance that we would ever need that.
    But if you would go back and check with him and see if 
anyone has asked that question. And if you could respond to us 
on the record as to whether or not that question has ever been 
asked to him and what the answer to that is.
    [The information referred to can be found in the Appendix 
on page 143.]
    Secretary Penn. I will ask that question today, sir. The 
only problem, and I think you will agree, is the loss of a 
carrier is unacceptable.
    Mr. Forbes. Oh, I don't think anybody disagrees with that, 
but the shortfall in planes is unacceptable too, shortfalls in 
depot maintenance from when we have ships that are failing our 
Inspection and Survey (INSURV) inspections, that is not 
acceptable to us either.
    And Mr. Arny, I know--somebody slipped you a piece of 
paper. If you want to get that in the record go ahead.
    Mr. Arny. Well, sir, again I didn't question it because I 
do believe the dredging is needed, whether you home port a 
carrier there or not, because we are constantly bringing--even 
when we had a conventional carrier there we would bring in 
nuclear carriers that we have got to light load them to get in.
    We have got to come in at high tide. It puts tremendous 
restrictions on it. We needed, in my opinion, we need to dredge 
that out whether you home port a nuclear carrier there because 
you are going to bring them in. You may not home port them 
there but you are going to bring them in and out as part of 
your annual operations.
    Mr. Forbes. And my time is up, so I will yield back the 
balance of my time, but if you will get back to me on that risk 
assessment question as to whether or not anybody has asked it. 
And if you could give it to us for the record we would 
appreciate it. Thank you, Mr. Chairman. I yield back.
    Mr. Ortiz. The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Mr. Chairman, with your permission, I am going 
to yield my time to Mr. Kissell and take his when his is due.
    Mr. Ortiz. Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Taylor for yielding your time. 
I just wish you would give me your questions because Mr. Taylor 
always asks the best questions. But I will try to make do with 
a couple I came up with.
    Mr. Taylor. Thank you, sir.
    Mr. Kissell. Mr. Calcara, I have noticed, unless I misread 
the number, that Army National Guard construction money is down 
$460 million in the 2010 request from what was actually 
approved in 2009, and for Army families construction, housing 
construction down $180 million from what was requested versus 
what was approved. Just wondering what the thinking is behind 
that?
    Mr. Calcara. Okay. On the Army housing side, most of those 
dollars are tied to capital investments into the Residential 
Communities Initiative (RCI) program, and as we continue to 
build out the RCI, we are at a 98 percent level. We don't 
require as much capital investment from the military 
construction account for those projects to keep going.
    On the Guard side the numbers are down. I think if you 
compare request versus request from last year. And you look at 
some of the facilities that we are buying through the base 
closure on the Reserve side, we are actually bringing more 
capabilities to the Guard than was requested last year.
    What I mean by that is if you will look about $300 million 
worth of the Army Reserve projects, about half of those are 
shared with the Guard. So if you add those two numbers 
together, and you compare that to last year's requests, we are 
within about 10 to 15 percent on the numbers.
    Mr. Kissell. Secretary Ferguson, in a previous hearing it 
was indicated, and I can't give you real specifics on this, but 
there was just some indications that either through not having 
the fighter planes available for our Air Force Guard, the Air 
Guard, but somehow we are deemphasizing the Air Guard.
    Just wondering if you could give me some reassurance that 
we are going to have those good pilots that are training in 
planes, that when we need them that they are going to be there?
    Ms. Ferguson. The Air Force is not looking to deemphasize 
the Air National Guard in anyway. The Air National Guard and 
the Air Force Reserves are a tremendous multiplier for the Air 
Force. They are deployed alongside our active duty members at 
all times.
    I can get you a better answer for that, but in all of my 
meetings I have had I have seen no indication from the Air 
Force that there is any emphasis to do that.
    Mr. Kissell. So the emphasis is going to be there, as we 
have seen it, in terms of the equipment they can train on and 
the budgeting process so that they can continue to be there?
    Ms. Ferguson. Absolutely.
    Mr. Kissell. Okay. And Secretary Arny, one question, and I 
hope this is not too much home cooking. I am from North 
Carolina, and my district goes right to the edge of Fort Bragg, 
and we have most of the military reservation but none of the 
base.
    A tremendous BRAC changes at Fort Bragg, tremendous 
incoming commands and we are very, very tickled with that and 
there is going to be a--I think the most flag officers outside 
of the Pentagon will be at Fort Bragg when all this is said and 
done.
    But it has been mentioned to me that we are not going to 
have an Air Force officer of flag rank on the base. But there 
is still going to be a significant amount of Air Force 
presence, and there is some concern that if we don't have an 
officer of equal rank, that there might be some difficulty in 
going back and forth in terms of communication and getting 
things done.
    It was suggested it might be a possibility of bringing in 
an additional ranking officer and staff. Just wondering if you 
know any on that?
    Mr. Arny. No, sir, that subject hasn't come up. As a former 
officer myself I don't see where that would be a problem. I 
would defer to my Air Force and Army colleagues on the 
specifics of it.
    Mr. Kissell. Did you all have any knowledge of any 
discussions on this? And once again I know this is getting down 
in detail but this is a pretty big operation and will be our 
largest Army base. If you all could get back to me on that I 
would appreciate that. Thank you. Thank you, Mr. Chairman. 
Thank you, Mr. Taylor.
    [The information referred to can be found in the Appendix 
on page 144.]
    Mr. Ortiz. Recognize my good friend the chairman of the 
Intelligence Committee from El Paso, Texas, yes.
    Mr. Reyes. Thank you, Mr. Chairman, and I thank all the 
secretaries for being here with us this morning. I just wanted 
to start out by taking a few moments to talk about what is, 
from my perspective, something very frustrating, and that is 
the overseas rebasing decisions, and actually indecisions is a 
better word.
    I think this morning I am frustrated beyond words with the 
latest edict that has come down that we are going to restudy 
this whole issue. I think, Mr. Chairman, this is an issue that 
has been studied and restudied, was studied by the rebasing, 
overseas rebasing commission, by the BRAC commission.
    We thought that these decisions were made and had already 
been ratified only to find out that we are in the process of 
delaying the move of our troops back to the U.S., which in my 
opinion is a great waste of time and money and a disservice 
because most importantly it leaves soldiers and their families 
in old substandard facilities.
    And it also forces our troops that are primarily going to 
be deploying to places like Iraq and Afghanistan to train in 
ranges that don't look anything like the areas that they are 
going to go into combat in. I think as a committee, Mr. 
Chairman, we need to really stand strongly on this.
    The other thing that frustrates me is the fact that we seem 
to be rewarding the very countries that are reluctant to keep 
their part of the bargain in places like Afghanistan.
    They are refusing to add additional resources and troops to 
help us out in Afghanistan which puts a further burden on our 
troops. I think we ought to take the stand that if you are not 
going to help us in these areas of the world that are critical, 
not just to us but to the whole world, then we stick with the 
original strategy and bring them home.
    I guess my question this morning I would like to ask 
Secretary Arny or Secretary Calcara the fact that the Secretary 
of Defense recently announced that he planned to stop the 
growth of the Army brigade combat teams at 45.
    That means not creating the 46th, 47th, and 48th brigades, 
as had been announced and planned under the Grow the Army 
concept. And he also said that while he is stopping those three 
brigades, he is going to continue with the same levels that 
have been approved by Congress.
    Part of the issue for me is that the Secretary said that 
he, in his words, he was going to, ``thicken the force, and in 
doing so help to decrease the draw time between deployments,'' 
which I think all of us agree we fundamentally need to address.
    So my question is this, where does the department plan to 
base the over 10,000 soldiers slated to serve in the now 
canceled three BCTs? I assume that we have a detailed plan, and 
that detailed plan has been discussed, has been presented 
before the decision was made by the Secretary to cancel out 
those three brigades.
    So can you tell this committee what that plan is? How we 
are going to accommodate those 10,000 troops?
    Mr. Calcara. Sir, the answer is probably more detailed than 
we could get into today. We have essentially looked at those 
population spreads and where they are across the Army, and 
there are incremental adjustments at certain locations.
    I guess what I am saying, and the short answer is we have 
identified Bliss, Carson, and Stewart as getting one less 
brigade because of the announcement. In theory there is a 3,500 
person population delta at each of those locations. It is not 
exactly working out that way.
    In some places we had BCTs that were not at full strength 
so they will be getting some of those people. At Fort Bliss, 
Fort Carson and Fort Stewart we didn't have people at full 
strength. They will be getting some people.
    So I don't have a display for you available today going 
base by base where those numbers are spread, but the answer is, 
wherever we had shortages in combat teams and combat 
configurations across the Army.
    Mr. Reyes. When will that be available? Mr. Chairman, if we 
can get that information I would appreciate it. And when will 
that be available?
    Mr. Calcara. We are having a working session tomorrow with 
staff and we will try to provide that information tomorrow.
    Mr. Reyes. Well, can we get that, Mr. Chairman?
    Mr. Ortiz. Sure we can get that and I think that gentleman 
has raised some very important questions that hopefully we can 
get to the bottom of it. I know that we do have a lot of 
soldiers who are injured and incapacitated. And even though 
they are inactive duty, they can go back for combat duty, but 
you raised some very interesting questions, and I think we need 
to follow up.
    Mr. Reyes. Thank you, Mr. Chairman.
    Mr. Ortiz. Ms. Fallin.
    Ms. Fallin. Thank you, Mr. Chairman. I have a couple of 
questions about the public-private partnerships on the housing. 
And I am pleased that we have made such tremendous progress and 
are working with private sector to create better living 
conditions for our soldiers. So thank you so much for doing 
that.
    I was reading where the Department of Defense plans to 
privatize, hopes to have about 87 percent of the family housing 
units privatized, including 188,000 units by 2010. And I have 
had the opportunity in my state to visit some of the facilities 
that we have had the public-private partnerships in, and my 
state has been very pleased with that in Oklahoma.
    But I want to ask a couple of questions. It has been 
indicated that 36 percent of the awarded privatization projects 
will have occupancy rates that are below the expectations from 
some of the things I have read.
    And I guess my question is what challenges will that 
present, and how do we plan to address that issue to ensure 
that we can increase those occupancy rates so that we can 
optimize these facilities and make sure that we are getting 
people in that need to be in there?
    Secretary Penn. Yes, ma'am, let me take a shot at that. We 
have seen some of those reports, and we are working with the 
Government Accountability Office (GAO), and they had one that 
said that 36 percent of the occupancy rates were below 
expectation and more recently said it was 29 percent.
    Our data shows 10 percent. We think they are including--if 
a house is occupied we have what we call a waterfall effect. 
The house is available for rent to an active duty member. If no 
active duty member wants the house, then we go down through a 
waterfall of Reserve members, civilians living on the base 
until you eventually get to--you can have civilians from the 
outside come in with the proper clearances.
    Early on, we saw rates that were lower than expected 
because the management on the bases didn't quite understand how 
that worked. That has changed, and what we have seen are 
occupancy rates of 90 percent or greater.
    Within the Navy we were looking at occupancy rates of like 
95 percent. So again we have a disconnect with GAO, that we are 
trying to figure out where they are getting their numbers from 
if they are not including some of these people. If the house is 
occupied by an active duty member or a DOD civilian, it is 
still occupied.
    Now the difference between everybody other than an active 
duty military is that they can only do a one-year lease. An 
active duty military person has a lease for as long as they are 
stationed there. So the waterfall effect still protects--while 
it protects our occupancy, we think we have balanced it to 
protect our service members.
    Ms. Fallin. Okay that makes sense. Now let me ask one other 
thing if I can, Mr. Chairman.
    When you think about the housing markets in the United 
States and foreclosure rates and the availability of homes that 
are on the marketplace and even the credit that is available to 
build facilities, how will the financial markets affect the 
ability for the partnerships to be able to get the credit they 
need to be able to build these housing units? And will the 
foreclosure rates, the vacant home rates affect, I guess, the 
occupancy and the need?
    Mr. Arny. We are seeing an effect. Most of our housing 
projects were done prior--I would say the bulk were done prior 
to the market changing. And we have seen some debt servicing 
issues. We don't have any. We are still considered a good risk, 
but we are seeing the fact that our rates aren't quite as good 
that we can get.
    So essentially what we are having to do is lengthen the 
development. We are lengthening the development time in order 
to accommodate that. We believe we have enough flexibility in 
there. It is not perfect. We liked it when the market was great 
but we are accommodating that.
    Ms. Fallin. Okay. Thank you very much. Mr. Chairman, if I 
can yield the balance of my time to Congressman Fleming?
    Mr. Ortiz. Go right ahead, no objections.
    Go ahead, sir.
    Dr. Fleming. Thank you, Mr. Chairman, and thank you to the 
gentlelady for yielding. My question, I have a very specific 
question to Mr. Calcara. My district, fourth district for 
Louisiana, is counter-cyclic to the rest of the country. We 
have two large bases, Barksdale and Fort Polk, and both of them 
are growing rather than declining. And we are real happy about 
that of course.
    But we do have a problem in Fort Polk. It is doubling in 
size, taking in acreage, and at the same time building up 
brigade strength. And it is surrounded by a rural area, so we 
have a housing problem there. And so I would like to ask you if 
you know specifically what your plans are to help solve that? 
And if not, generally how we are going to attack that problem?
    Mr. Calcara. Yes, we are looking at Fort Polk, and we have 
been. It is not a simple answer from a privatization 
perspective because of the market issue there. One of the 
things that we have to look at is the ability to work within 
the authority's limits on cash investment, as well as priority 
or preferred returns that the private sector is now requiring 
on equity.
    When we originally started this program, payouts in that 
range were in the 5 percent to 10 percent. We are now looking 
at equity premiums in the 16 to 20 range. So as we start paying 
more for private financing, as interest rates creep higher, as 
the long bond grows and spreads against the long bond grow, our 
ability to make privatization work there is limited.
    But we think that is the best solution. We just think the 
timing to do that right now is probably problematic. But we are 
not ready to give up yet. We are looking at it and we will 
continue to try to find a solution for the housing problem 
there.
    Dr. Fleming. Thank you.
    Mr. Ortiz. Mr. Reyes.
    I mean, correction, Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman. You actually may 
have read my mind because I was going to bring up what Mr. 
Reyes has already spoken about. It is terribly important for 
readiness purposes, Mr. Chairman, that we have the active 
cooperation of the community surrounding our installations as 
we attempt to grow those installations.
    For example, the local community has to make certain 
investments in order to meet the needs of the population that 
is going to be brought in. And that is particularly true of 
parts of our country which are more rural, and an awful lot of 
our installations are located in more rural areas.
    If you are going to increase the size of the force by 3,000 
or 4,000 people that effectively means 5,000 to 10,000 people 
are coming into this rural community. If the rural community 
does not prepare for that at our request, then when those new 
troops arrive the facilities simply aren't there to meet their 
needs, the needs of their families, the needs of their 
children.
    The decision to reduce from 48 to 45 brigades causes a real 
problem for the communities that surround Fort Stewart, 
Georgia. This is a rural part of the country. Those communities 
are smaller communities that don't simply have excess capacity 
available to meet the needs of 3,000 to 10,000 people being 
brought in by DOD.
    So at DOD's request, at Army's request, those communities 
invested north of $450 million getting ready to receive a new 
brigade, and that money is the sort of investment we ask our 
partner communities to make routinely.
    I think readiness in the future suffers if we don't live up 
to our end of the bargain. If we don't live up to our word, to 
our commitment to these communities, it causes them to 
reasonably rely on our requests.
    And I think we need to seriously look at the decision to 
reduce brigades encouraging the Army and DOD generally to 
figure out what compensating decisions can be made in order to 
mitigate the negative impact of a decision like this?
    Let us assume in fact we are not going to have the 
additional brigades. The Army nevertheless is not shrinking. It 
is growing. Certainly we can put warm bodies into Fort Stewart 
to, you know, basically meet the obligation that we have with 
those communities that have relied upon us in going ahead and 
meeting our need to bring new troops in.
    And Mr. Chairman, I think maybe we need to have some 
committee report at the very least that directs that something 
along these lines be done. And with that, Mr. Chairman, I would 
like to yield the balance of my time, if there is no objection, 
to Mr. Kratovil from Maryland.
    Mr. Ortiz. Sure, no objection.
    Go ahead, Mr. Kratovil.
    Mr. Kratovil. Thank you very much. Thank you for yielding. 
I was recently at Fort Meade in Maryland and toured the 
installation there and went to some of the housing, the 
privatized housing, which was very impressive. The units were 
wonderful, had a great community room. There were certainly 
other very nice amenities to it.
    I noticed though that the occupancy rates at a lot of 
these, in a lot of the relationships that we have in these 
housing, privatized housing arrangements, are not where they 
should be, or at least where it was expected.
    One, is that true? And two, why is that and what can we do 
to change that? And if we don't change that, are these private 
partners going to be able to continue their investment in the 
long term?
    Secretary Penn. Sir, we don't see those same low rates, as 
a matter of fact we have people standing in line. My son just 
moved into the area, and there is a line for Fort Belvoir. So 
he rented in the private sector. And again DOD-wide only 25 
percent of our people are living on base and 75 percent are 
living outside.
    We believe there are enough. First of all we don't have the 
evidence to show that occupancy rates are low. If they are low 
then the private sector partner is allowed to rent to other 
than active duty military people. He can rent to reservists, to 
government civilians and eventually he can rent to private 
citizens. So if there is a low occupancy rate we will take a 
look at it, but there shouldn't be one.
    Mr. Ortiz. Okay, are there any, go ahead.
    Ms. Ferguson. If I can answer from the Air Force 
perspective, certainly I don't have the info on Fort Meade, but 
what we have found in the Air Force is in the initial 
development period, our occupancy rate is lower there once the 
developer gets in there and they build new houses or renovate 
houses. And for our last quarter, Air Force overall is at 90 
percent, which was our highest that we have had since 2006. We 
have continually seen an increase.
    But to also get to your point, as we continue to privatize 
the remaining bases that we have in the Air Force inventory, we 
have 22 bases left to privatize, we are going to go in with 
lower numbers than what we think we need and then build to the 
higher numbers when occupancy dictates it.
    So we are going with a more conservative approach up front 
based on some lessons learned that the Air Force has had in our 
earlier projects.
    Mr. Kratovil. Okay.
    Mr. Ortiz. Go ahead.
    Secretary Penn. Sir, you also can't compare occupancy rate 
under privatized with our own occupancy rate in the old days, 
because in the old days if a house was taken out for 
maintenance, it wasn't counted as being occupiable. With the 
private sector guy, if he has an empty house whether it is down 
for maintenance or--it is an empty house so his numbers will be 
different.
    Mr. Kratovil. Okay, thank you. I was also recently at a 
hospital in Harford County just outside of Aberdeen, and the 
hospital was saying that, you know, of course there has been a 
lot of discussion in terms of infrastructure related, the roads 
surrounding the installations and preparing for this growth 
that, of course, we are very happy to have in Maryland.
    But they were saying that in terms of--they are very 
concerned about infrastructure--in terms of health care, to 
prepare for these folks coming. Are you hearing similar 
concerns at all in terms of the communities where you are 
going?
    Secretary Penn. It depends on which community, but I 
haven't heard the health care issue other than I have heard 
some of the road issues, especially around the more urban 
locations at Fort Belvoir and stuff, but not around----
    Mr. Kratovil. All right but is that an issue that we 
considered in terms of looking at the growth that is going to 
occur with the changes with BRAC and the consequences of that 
on these surrounding communities?
    Mr. Ortiz. Will the gentleman yield?
    Mr. Kratovil. Mr. Chairman?
    Mr. Ortiz. You were given time from another member so we--
--
    Mr. Kratovil. Mr. Chairman, I have no time to yield back, 
and please don't blame me.
    Mr. Ortiz. We will see if we can have a second round, but I 
want to go back to some of the questions that were asked. You 
know, I have been here and I have gone through, I think, five 
base closures.
    This last base closure, I was able to see where the base 
closure commission and QDR commission, they were never able to 
synchronize with one another, and I think this is one of the 
reasons why we are having the problem that we are having today.
    And this is one of the reasons why the local communities 
are going through what we are going through now. We made some 
horrible mistakes at the expense of local communities, but now 
I would like to yield to Ms. Bordallo, the lady from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman. This is a 
very important hearing for me and my constituents. To all of 
our witnesses, thank you very much, Secretary Arny, Secretary 
Penn, a most important thank you to you because you have had a 
real leading role in the Guam military buildup, and also to 
Secretary Calcara and Secretary Ferguson.
    I also want to express my general support for the $787 
million in total military construction funding in the fiscal 
year 2010 budget for all of Guam's military installations, 
including the Guam National Guard.
    Secretary Arny, let me start with you. As you know, on 
April 9th, GAO report called on more senior level involvement 
from the DOD to make sure that Guam's local infrastructure 
issues were given more consideration in the federal budget 
process.
    Specifically, the report calls for a meeting of the 
economic adjustment committee (EAC) for executive level 
coordination with other federal agencies. When can we expect 
the EAC to begin meeting to address the Guam build-up and how 
will Guam's local infrastructure concerns be addressed?
    Mr. Arny. Yes, Ms. Bordallo, the economic adjustment 
committee, we are working to set up a meeting. I don't have a 
date at this time, but it may not be--with the agencies not 
having their political appointees in place, it may not occur 
for another couple of months.
    Ms. Bordallo. All right. As soon as we hear of that date, 
you could correspond with us.
    Secretary Penn, it is very promising to see some $412 
million requested for the Navy and Marine Corps construction, 
as well as $259 million for the new hospital on Guam. 
Obviously, one of the impediments to executing these funds that 
I am confident this Congress will authorize and appropriate for 
is the completion of the draft environmental impact statement 
(EIS) and the record of decision.
    So, Secretary, can you update the committee on its status 
and when we can expect to see a draft EIS and along these 
lines? I am also interested in learning more about how the 
department plans on using mitigation funding that this Congress 
authorized in Section 311 of last year's National Defense 
Authorization Act (NDAA)?
    Can we expect to see roughly five percent to nine percent 
set aside in each MILCON project for such mitigation efforts, 
and is this something that we can count on from DOD?
    Secretary Penn. Ma'am, we hope to get the master plan out 
so we can do the construction. We want to start in fiscal 2010. 
That is our goal and we are--at this plan for the EIS, we are 
working 86 different studies to make sure we do Guam right, 
okay?
    And for saying the mitigation before we completed the 
studies would be very difficult, would not be good on our part. 
I know I specifically talked with the Department of Agriculture 
yesterday on things we can do as far as the mitigation measures 
are concerned.
    I think we need the analysis completed before we can do the 
mitigation. There will be some that requires a more significant 
amount of funding than others, but until we have that analysis, 
the baseline, I don't think we can say what a specific 
percentage would be for the mitigation measures.
    We are looking to mitigate all the areas that are impacted. 
That will be done, okay? It is the right thing to do. I mean 
the law requires it, but it is the right thing to do. So we are 
not going to destroy anything.
    Ms. Bordallo. Mr. Arny, do you have any comments on that?
    Mr. Arny. No, I don't. I am not sure of the section you are 
referring to, and I would like to get with your staff and 
figure that out.
    Ms. Bordallo. Good, all right. I am also concerned about 
support needed but seemingly absent from DOD for local and 
federal cooperating agencies in the EIS. It is my understanding 
that some lawyers in the department contend the economic act 
precludes DOD from helping to fund cooperating agencies for the 
Guam military build-up.
    I hope that this can be resolved, especially for our local 
cooperating agencies that do not have the funds to review the 
EIS. So how can we get it right and done on time if DOD is not 
fully funding the EIS?
    Can you comment on this matter and how it is being 
resolved, Secretary Penn?
    Secretary Penn. Yes, ma'am, we are fully funding the EIS. 
The EIS is the Department of the Navy (DON) responsibility and 
that is what we are doing. We have brought all of the local 
agencies in. In fact, there is a major--Environmental 
Protection Agency (EPA) is having a meeting later this month on 
Saipan looking at all the Marianas, and I think Mr. Arny and I 
both met with EPA Region 9 last month.
    Ms. Bordallo. So that, for the record, will be fully funded 
by DOD?
    Secretary Penn. Exactly.
    Ms. Bordallo. And then I have one last question. Go ahead, 
Mr. Arny.
    Mr. Arny. You may be referring to requests from Guam EPA 
for funding for them to review.
    Ms. Bordallo. Yes.
    Mr. Arny. We are not allowed to fund Guam EPA to review our 
documents in this particular case. This is not like a--we don't 
have a Defense-State Memorandum of Agreement (DSMOA) to work 
that and I can work with your staff on the details, but I 
believe the government of Guam says they will review the 
documents with the staff that they have.
    Ms. Bordallo. All right. Mr. Chairman, I have just one 
question and then no second round for me, if you don't mind?
    Mr. Ortiz. Make it short because----
    Ms. Bordallo. All right. Ms. Ferguson, thank you for your 
funding for the intelligence, surveillance, and reconnaissance 
(ISR) and the STRIKEs, as well as northwest field activities at 
Anderson Air Force Base.
    As you know from past correspondence, I have been concerned 
about the Air Force's commitment to Anderson's military 
construction needs. We don't see these projects to be 
overshadowed or unnecessarily compromised due to increased Navy 
and Marine Corps program needs on Guam with the build-up.
    Can we expect similar commitments in future years for 
Anderson?
    Ms. Ferguson. As you can tell from the 2010 budget, we have 
one project in there that supports the STRIKE Forward Operating 
Location (FOL) bed-down, as well as three projects that help 
facilitate the movement of the folks off the Korean Peninsula.
    I can't comment on any projects that we have beyond fiscal 
year 2010 in this session.
    Ms. Bordallo. All right, thank you. And, Mr. Chairman, just 
to you, with recent developments from North Korea and their 
plans to now launch long-range missiles with supposedly Guam as 
one of their targets, it is our responsibility to provide 
security for the U.S. citizens of Guam, so I urge everyone to 
work together to get this military movement right. Thank you.
    Mr. Ortiz. Thank you so much.
    Now, I will yield to Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman. Mr. Chairman, in 
light of the fact that I had my question answered, I am going 
to yield the balance of my time to the gentleman from Texas, 
Mr. Conaway.
    Mr. Ortiz. No objection.
    Mr. Conaway.
    Mr. Conaway. Well, thank you, Mr. Chairman. Thank you, Dr. 
Fleming, appreciate that.
    Mr. Penn, real quickly, did you say that the EIS has been 
expanded on Guam to include all of the range areas that are 
necessary to make this thing work?
    Secretary Penn. No, sir, I did not say that.
    Mr. Conaway. What did you say? You said the EPA----
    Secretary Penn. I said we are conducting 86 studies for the 
current EIS.
    Mr. Conaway. You just said you were bringing somebody in to 
talk about the Marianas.
    Secretary Penn. I said EPA is having a meeting on Saipan. I 
think it starts the 22nd of this month, to talk about all the 
EIS.
    Mr. Conaway. Okay. That is unrelated to the work that has 
to be done for that?
    Secretary Penn. Correct, right.
    Mr. Conaway. While we are talking about the Guam movement, 
can the Marine Corps waive the flight safety issues at the 
replacement facility at Schwab?
    Secretary Penn. No, sir, that is not the intent at all. We 
do not intend to do that.
    Mr. Conaway. Well, how do you intend to make that system 
work? If the Navy is--how are you going to use that facility to 
replace the Futenma facility if you can't waive the flight 
safety issues that the Navy has?
    Secretary Penn. I don't know what specific flight safety 
issues you are referring to, but with aircraft there are many, 
many things you can do to mitigate, everything from reducing 
the weight, operating at different temperatures, all those 
things that are always done on a daily basis.
    In the pilot's pocket checklist, before I would launch, 
except from a carrier, I would go through and check my outside 
air temperature and----
    Mr. Conaway. Well, wait, yes, but that----
    Secretary Penn [continuing]. And weight and everything and 
that is how you mitigate it. You can go down 1,000 pounds and 
get within limits.
    Mr. Conaway. Okay.
    Secretary Penn. We are not going to violate safety. We are 
not going to bend any safety rules at all to operate out of the 
field.
    Mr. Conaway. Okay. Is this like a boxing match with one 
hand in your pocket?
    Mr. Arny. No, sir.
    Secretary Penn. I don't think so.
    Mr. Arny. The Pacific commander has said, with the length 
of the runway and the length of the overruns required, that 
they can meet all their operational requirements, and the 
Marine Corps has agreed with that.
    Mr. Conaway. Okay, so the Navy will certify that is a safe 
air place.
    Secretary Penn. Yes.
    Mr. Arny. There is one--there may be some need for waivers 
in terms of, frankly, every field we have in America has 
waivers, but we will make sure they are mitigated or taken out 
or that we all agree that the risk is minimal.
    Mr. Conaway. Okay, and then we can reduce the capacity of 
what we are trying to do, to get under those guidelines. Okay.
    You know, construction budgets fluctuate, unlike say a 
personnel line where that is going to be pretty consistent, so 
going up and going down is not automatically a flag.
    Mr. Arny, how do you look at system-wide--Mr. Calcara 
mentioned some of the requests being met is a better indicator, 
versus just simply the budget number changing.
    How does the system look at system-wide construction needs 
to say, you know, what percentage of those needs are being 
funded rationally and, I mean, how do you look at your overall 
plan for deploying all these scarce resources against a 
spectacular array of needs?
    Mr. Arny. Well, what Mr. Calcara is referring to is that 
the Guard budget in particular, that Congress is grateful and--
or we are grateful to Congress because they will usually add to 
that request, so we measure it from what we requested the year 
before, not from where Congress appropriated.
    On the overall budget, we do look at it from year-to-year, 
which is one of the reasons we are trying to go to this Q 
rating, so that we have a measure of what buildings need to be 
replaced and when they need to be replaced.
    Part of the budget is also for new aircraft, new ships, new 
tanks and the facilities that go with that. And we rely on the 
services--we obviously rely on the services to meet their 
operational need and then we oversee it and make sure it is 
there.
    Mr. Conaway. Did you just tell us that you intentionally 
under-budget because you know that Congress is going to add 
money on top of it?
    Mr. Arny. No, sir. We compare our budgets to what we 
requested----
    Mr. Conaway. But let us just--earlier you----
    Mr. Arny. Just for the Guard. For the Guard part of it we 
compare our request for 2010 for instance to our request for 
2009. We believe that fills the needs. If Congress adds things 
on that makes us--that Guard budget--puts it in better shape. 
We believe that the request will satisfy our needs.
    Mr. Conaway. Okay, but you are counting on Congress 
plussing that up?
    Mr. Arny. No, sir, we aren't.
    Mr. Conaway. All right, just making sure I hadn't 
misunderstood that.
    Mr. Calcara, the Army has got five million acres short of 
places to run tanks and helicopters and all that kind of stuff. 
You dropped the request at Pinon Canyon from 400,000 to 
100,000. How are we going to keep training the kids we need to 
train with this kind of a shortfall?
    Mr. Calcara. Yes, the shortfall was there. It has been 
validated through, you know, GAO and how we doctrinally compute 
it. In the short term, our position is to only acquire property 
in areas where the local delegation isn't supporting us.
    In the case of Pinon Canyon, the mitigations are on battle 
mixes, on configurations, on tempo. We are still accomplishing 
a lot of training at Pinon Canyon. The question is how 
efficient and effective could we get by acquiring more 
training?
    As communications systems develop, as unmanned vehicles 
develop, we require more physical square footage to really, 
truly test those types of equipment.
    We are compromising some of that, obviously, with a reduced 
footprint, but we are still training there and there are 
workarounds. We just continue to work at it. We think we had a 
plausible strategy for Pinon Canyon. We had a willing seller at 
one point who changed course on us. We are going to continue to 
work it hard.
    Mr. Conaway. Thank you, Mr. Chairman. Yield back.
    Mr. Ortiz. Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair. I would like to thank 
all of you on the panel for being here today and for your 
service to our country. And I am very glad and very relieved to 
see that the three remaining BRAC 2005 sites in Iowa are in 
fact funded in this budget request for 2010.
    Those three, of course, are Iowa National Guard Reserve 
Centers in Cedar Rapids, Middletown and Muscatine. Those 
facilities were constructed in 1916, 1950, and 1973, 
respectively, and are less than the current authorized size for 
such structures. And improvements to these buildings will 
enhance training, recruitment and retention.
    And I think, in particular, in light of the increased role 
that our National Guard Reserve components have been playing 
overseas in our two conflicts, and potentially in conflicts 
down the line.
    I am also very glad to see the funding is included for 
equipment infrastructure modernization at the Iowa Army 
Ammunition Plant that is near Burlington, Iowa.
    Most of the infrastructure at that plant, and I toured that 
plant, is over 60 years old and requires significant 
modernization in order to assure the safety of our workers, 
continuity of operations and timely delivery to our service 
members.
    I just have two questions related to these two issues. I 
understand that funding for the Muscatine Reserve Center may be 
moved up to 2009. A decision may be coming soon. Could either 
of you, either Secretary Calcara or Secretary Arny, address 
yourself to that question?
    Mr. Calcara. Yes, we currently have Muscatine tracking at 
about $8.8 million in total program. We are experiencing some 
savings in projects as we are opening bids. Our intent would 
be, you know, once we think we have got past the lion's share 
of the program to try to pull some projects forward.
    I would tell you it would probably be in the next 30 to 45 
days where we would make that decision. We would like to get 
that one in at $9 million if we could.
    Mr. Loebsack. Okay, thank you. And then my second question 
has to do with not just the Iowa Army Ammunition Plant, but 
plants like it in general. There appears to be perhaps 
inattention to the deteriorating infrastructure of Army 
ammunition plants including the Army ammunition plant in Iowa.
    Can you highlight how this budget supports modernization of 
infrastructure at these facilities including security for 
example, and also energy efficiency enhancements? Does the Army 
or does DOD have a long-term plan to address these issues? And 
either one of you or both of you can speak to that issue.
    Mr. Arny. Over a long-term basis we used to look at 
sustainment rates of 70, 75 percent. We are now at 90 percent. 
We would like to go to 100 if the budget would allow. We are 
also looking at developing this Q rating plan which will allow 
us to better measure the condition of our facilities.
    And then we will be able to defend ourselves in the MILCON 
world against the procurement folks to say, ``Look, if you want 
a Navy, Marine Corps, Air Force, Army that is capable, you have 
got to expend this much money.''
    We were also beneficiaries this year of the stimulus funds 
so we got an additional $7.4 billion. And also in the 2010 
budget we were able to sustain our sustainment funding in the 
latest budget round, so we are doing much better, and we have a 
better long-term way to do it. It is not there yet, but it is 
much better than we have done over the past 10 to 15 years.
    Mr. Loebsack. Thank you very much, and I will yield back 
the balance of my time, Mr. Chair.
    Mr. Ortiz. The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you Mr. Chairman. I want to thank our 
panel for being here today. Mr. Arny, I am concerned, and I am 
going to ask for your personal oversight on the transfer of the 
property at Roosevelt Roads.
    I think that all of our Defense Department has a bad habit 
of buying high and selling low, and I think again it is whether 
it is on paying too much for ships or aircraft or taking things 
that are of substantial value and selling it for less than they 
are worth, we have got to do a better job.
    I am going to give you a for instance that I still haven't 
had an adequate response on. In my congressional district in 
Gulfport, Mississippi, Navy Retirement Home purchased 10 acres 
of land with 2 homes on it. One of the homes had a pool with 
riparian rights, which means it had access to build a pier out 
in the Gulf of Mexico.
    They purchased that 10 acres in 2003 for $5.7 million. In 
less than 12 months they sold off the 2 homes, the swimming 
pool and the riparian rights for less than $1 million. So that 
means you paid $570,000 for acreage timber that you could not 
access from the road, which you turned around and sold 2 homes 
and 3.4 acres for an average of $280,000 an acre.
    That is a bad deal. That is a terrible deal for the 
taxpayer, and quite frankly, I believe something is rotten 
there. I think somebody in your system gave away, literally 
gave away a public resource. Now the reason I say that is 
number one, I want that looked into. That is in my own 
congressional district, but I want it looked into.
    I don't want to see that happen. I had visited Roosevelt 
Roads on several occasions. That is a phenomenal piece of 
property. I realize the market right now for real estate is at 
an all time low so the first question is do we want to be 
selling this phenomenal piece of property when the market is 
terrible, or do we want to wait a few years and get an actual 
value for that property when the economy recovers, and I 
believe it will.
    Has anyone given any thought to that? And the other perfect 
example I will give is in our quest to balance the budget, 
around 2004, 2005--I am sorry. Yes, in our quest to balance the 
budget during the Clinton years, shortly after the 1994 
election, we sold off the oil shale reserves when the price of 
oil was at $11 a barrel.
    What did it reach last summer, almost $150? So again, there 
is a pattern here where we are not being good stewards. We are 
in a rush to make this year's books look good. We do a very 
poor job long term, and I am curious what is going to be done 
to kind of change that mentality so we try to buy things for 
the best price and sell things at the best price for the 
taxpayer.
    Mr. Arny. Mr. Taylor, I agree with you completely. Let me 
mention in the Mississippi situation. A year or so ago you had 
raised this, and I put it in the system. I don't believe that 
the home falls under DOD anymore, and I am not sure. I was in 
Navy for six years. That never came under our purview.
    I think it is a separate management. When I was at OMB in 
the mid-1980s, late 1980s, the various homes were separate 
agencies from DOD. They were not controlled by DOD.
    Mr. Taylor. Mr. Arny, again, I remember the funds collected 
from soldiers, sailors, airmen, and Marines fund that, so I 
think that was very much a DOD nexus.
    Mr. Arny. Yes, sir, and again, but it is not something 
that--it is a separate little agency if I recall, and I read 
the articles, and I agree with you that that should be 
investigated.
    Second, on Roosevelt Roads, if it were, and I did base 
closure for Mr. Penn, if you will recall 4 or 5 years ago, we 
sold several bases in California and brought in over $1.1 
billion in revenue that then we used to monetize cleanup.
    That is the position the department prefers to be in where 
land has real value. We would like to have the flexibility to 
be able to sell what the community doesn't need in terms of 
direct economic development conveyances.
    However, as you well know, we are frequently pressured, as 
we are being again this year, to give things away for nothing, 
so I would argue that if you leave--the services have now 
plenty of tools in their toolbox to provide benefit to the 
communities, and to provide value back to the taxpayers of the 
country where land is valuable.
    And they also have the ability to wait to sell if they are 
not pressured to change their rules now.
    Mr. Taylor. Well, again, I want to get it on your radar 
screen because I hope someone, before a contract is let, is 
going to look at that and say wait a minute. Is that a fair 
price for the taxpayers, and shouldn't we just wait a little 
while until the market recovers?
    You sold that property in California when the market was 
red hot. That was a smart move, but I would certainly hope that 
someone is going to take the time to make sure that what we get 
should it be sold is at a fair price to the taxpayers.
    Mr. Arny. Well there are measures, I am told, that will be 
in your bill that will demand that we do no cost transfers.
    Mr. Taylor. Thank you, sir.
    Mr. Ortiz. Mr. Kratovil.
    Mr. Kratovil. Thank you, Mr. Chairman. I apologize for 
going over my initial time. I was so excited to be able to ask 
a question I couldn't contain myself, so thank you. Sort of a 
general question, can any of you discuss--I guess Mr. Arny, the 
progress in the realignment process of Walter Reed to the Naval 
Bethesda Hospital.
    Mr. Arny. Yes, sir, I can't give you all the details, but 
it is on track. The construction is underway. We have a plan 
that will be complete on time and the facilities will be there.
    Mr. Kratovil. So as of right now, it is on track and we 
anticipate that it will be completed as scheduled?
    Mr. Arny. Yes, sir.
    Mr. Kratovil. All right, Fort Meade's Warrior Transition 
Unit right now is about--my understanding is it is at about 
150? My understanding is there hasn't been any decision as to 
whether or not that is going to be a permanent unit, apparently 
still pending.
    The concern that I have is that those numbers are 
continuing to grow and without a final determination, the 
resources necessary to deal with that growth are not 
forthcoming. My question is, assuming until that decision is 
made, assuming the unit remains at that level or continues to 
grow, can Fort Meade count of the resources necessary to deal 
with it?
    Mr. Arny. We have Warrior Transition Units all over the 
Army, and I think our strategy is to meet surges and spikes 
where we have capabilities for care. In the Fort Meade 
situation we are monitoring it closely.
    The center was sized based on the best information 
available. The best I could tell you is I don't have any 
reports that it is undersized or they are experiencing any 
difficulties at this time.
    Mr. Kratovil. My understanding was that the estimates were 
around 80, and now it is about 150, and it is continuing. The 
expectations are, because I was just there, are continuing to 
grow, and again my concern is at the same time we are having 
these units to provide obviously necessary resources, we are 
going to set ourselves up for failure if we don't have the 
resources in the places where we are sending these soldiers.
    So it is something I would like to ask you to keep an eye 
on, particularly as it relates to Fort Meade.
    Mr. Arny. We will, and again, we are applying an enterprise 
concept for Wounded Warrior Units looking across the Army where 
capacity exists.
    Mr. Kratovil. Thank you. I yield back.
    Mr. Ortiz. Mr. Kissell.
    You know, going back to what the Navy buys and sells, 
without having to mention any service at all, we have a piece 
of land in my district that they could have bought for about 
$700,000 but they waited and waited and waited and waited.
    When they came back, now they are going to have to pay $11 
to $12 million or more. So this is why some of the members are 
disturbed and rightly so, you know? I mean to us, taxpayers' 
money is very sacred, and I don't have to mention the agency's 
name. I think some of you know who I am talking about, but 
anyway we are going to have votes in a few minutes.
    We are going to have about 5 votes, which means that if we 
don't finish our questions you guys will have to stay here for 
the next 45 minutes to an hour, and we are not going to punish 
you like that.
    So I just have one last question for my good friend 
Secretary Arny. This round of BRAC wasn't like any previous 
round, and the implementation of the BRAC commission 
recommendations were complex and interrelated. Is the 
department going to complete all the realignment proposed by 
the BRAC commission by September 2011?
    If so, what extraordinary measures will the department 
adopt to meet this deadline? Maybe you can clue us, are you 
going to be able to meet this deadline?
    Mr. Arny. Yes, sir, we are going to meet that deadline, and 
I, you know, in our House Appropriations Committee (HAC) MILCON 
hearing, you know, all the services agree. We are all on track. 
We are going to meet it.
    Mr. Ortiz. I know you for a long time. I trust you.
    Mr. Arny. Okay.
    Mr. Ortiz. Hearing no further questions, this has been a 
very good hearing, and you can understand the concerns of the 
committee and their interest as to why they ask some of these 
questions, but thank you so much for your service.
    Thank you so much for joining us today, and hearing no 
further questions, this hearing stands adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                              June 3, 2009

      
=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              June 3, 2009

=======================================================================
      
      

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              June 3, 2009

=======================================================================
      
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES

    Secretary Penn. During the Navy's Strategic Laydown and 
Dispersal review, the Navy Staff's Operations, Plans, and 
Strategy directorate (OPNAV N3N5) considered a variety of 
factors for various homeports including port force protection 
postures and risk mitigation measures. The analysis of East 
Coast strategic dispersal of nuclear-powered aircraft carriers 
was informed by referencing the following threat and 
vulnerability documents:

    a. LJoint Staff Integrated Vulnerability Assessment (JSIVA) 
on Naval Station Norfolk initiated by the Joint Staff and 
conducted by a team of seven specialists from the Defense 
Threat Reduction Agency (DTRA) from 6-11 August 2006.

    b. LChief of Naval Operations Integrated Vulnerability 
Assessment (CNOIVA) for Naval Station Mayport conducted by NCIS 
from 21-26 January 2007.

    c. L``Port Threat Assessment: Sector Hampton Roads'' 
conducted by the USCG dated 17 May 2007.

    d. L``Port Threat Assessment: Sector Jacksonville'' 
conducted by the USCG dated 28 June 2006.

    e. LSoutheast Virginia Threat Assessment conducted by NCIS 
dated 27 August 2008 and 10 October 2008.

    f. LMayport, Florida Threat Assessment conducted by NCIS 
dated 30 May 2008.

    g. LJacksonville, Florida Threat Assessment conducted by 
NCIS dated 3 October 2008.

    h. L``Domestic Maritime Domain Terrorist Threat 
Assessment'' and ``Domestic Maritime Domain Terrorist Threat 
Assessment (Update)'' conducted by the FBI dated 28 March 2008 
and 17 April 2008 respectively.

    i. L``Homeland Security Threat Assessment: Evaluating 
Threats 2008-2013'' conducted by the Department of Homeland 
Security dated 18 July 2008.

    j. L``The Terrorist Threat to the U.S. Maritime Domain'' 
conducted by the USCG dated 25 March 2004.

    k. L``The Terrorist Threat to the U.S. Homeland'' conducted 
by the Director of National Intelligence dated July 2007.

    Most of these documents are classified but can be provided 
via the appropriate channels, if required. The documents were 
cited in briefs to Navy leadership during the Strategic Laydown 
and Dispersal decision process.
    The decision to create the capacity to homeport a CVN at 
NAVSTA Mayport represents the best military judgment of the 
DON's leadership regarding strategic considerations. The need 
to develop a hedge against the potentially crippling results of 
a catastrophic event was ultimately the determining factor in 
the decision to homeport a nuclear-powered aircraft carrier in 
Mayport. The consolidation of CVN capabilities in the Hampton 
Roads area on the East Coast presents a unique set of risks. 
CVNs assigned to the West Coast are spread among three 
homeports. Maintenance and repair infrastructure exists at 
three locations as well. As a result, there are strategic 
options available to Pacific Fleet CVNs if a catastrophic event 
occurs. By contrast, NAVSTA Norfolk is homeport to all five of 
the CVNs assigned to the Atlantic Fleet and the Hampton Roads 
area is the only East Coast location where CVN maintenance and 
repair infrastructure exists. The Hampton Roads area also 
houses all Atlantic Fleet trained crews and associated 
community support infrastructure. A second CVN homeport on the 
East Coast will provide additional CVN maintenance 
infrastructure and provide strategic options in case of a 
catastrophic event in the Hampton Roads area. [See page 14.]
    Secretary Penn. The risk assessments for both Norfolk and 
Mayport are classified. These documents were used by the OPNAV 
N3N5 staff during the Strategic Laydown and Dispersal review.
    The list of risk assessments was previously provided in 
response to a HASC Department of Defense Priorities hearing 
held on 27 Jan 09. Since then, there have been two new 
assessments for the Hampton Roads area:

    (1) LCNO Integrated Vulnerability Assessment for Norfolk, 
Virginia dated 11 May 2009, classified.

    (2) LSoutheast Virginia Threat Assessment produced by NCIS 
dated 17 Jun 2009 concerning the terrorist threat in the SE 
Virginia area, classified.

    The information in these reports does not significantly 
differ from previous reports, nor do they change the strategic 
impact to naval forces if the Hampton Roads area was closed by 
a catastrophic event. [See page 15.]
                                ------                                


            RESPONSES TO QUESTIONS SUBMITTED BY MR. KISSELL

    Ms. Ferguson. There are currently no Air Force specific 
General Officer positions at Ft. Bragg, but we will continue to 
support the Air Force general presently assigned to the Joint 
Special Operations Command position at that location. [See page 
17.]
    Mr. Calcara. The Army is not aware of any issues. [See page 
17.]
    Secretary Penn. There are no Department of the Navy Flag or 
General Officers relocating to Fort Bragg because of BRAC. [See 
page 17.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              June 3, 2009

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. The Department has indicated that several basing 
initiatives have been included in the Quadrennial Defense Review (QDR) 
including Marine Corps training requirements associated with Guam, 
nuclear aircraft carrier basing on the East Coast, and Brigade Combat 
Team retention in the European theater.
    In your estimation, how likely is it that the QDR will be able to 
make these explicit decisions in time to include the responses in the 
fiscal year 2011 budget submission?
    Mr. Arny. The QDR process timeline was established to ensure 
integration with the FY 2011 budget cycle. To date, QDR activities are 
on track for completion within the specified milestone schedule. I have 
no reason to believe that QDR will not proceed as planned in order to 
inform the FY 2011 budget submission. However, some issues will require 
additional analysis which will defer budget details to the FY 2012 
submission.
    Mr. Ortiz. The BRAC 2005 process requires the Department of Defense 
to complete associated realignments and closures by September 2011.
    Does the Department need additional flexibility in schedule to 
accomplish the BRAC 2005 timeline?
    Mr. Arny. No. The Department does not need additional flexibility 
and is on track to implement all BRAC 2005 recommendations prior to the 
September 15, 2011 statutory deadline. To ensure BRAC is fully 
implemented in accordance with statutory requirements, the Department 
assesses status of each recommendation during an annual Integrated 
Program and Budget Review. The Department recognizes the unique 
challenges associated with implementing the more complex 
recommendations and the synchronization efforts required to manage the 
interdependencies among many recommendations. To apprise senior 
leadership of problems requiring intervention as early as possible, the 
Department institutionalized an implementation execution update 
briefing program in November 2008. These update briefings, representing 
83 percent of the investment value of all recommendations, provide an 
excellent forum for managers to review progress. The business managers 
have and will continue to brief the status of implementation actions 
associated with recommendations exceeding $100M on a continuing basis 
through statutory completion of all recommendations (September 15, 
2011).
    Mr. Ortiz. How does the Department assess the strategic risk of 
moving a significant amount of the Department's command structure 
concurrently in fiscal year 2011?
    Mr. Arny. The Department, specifically the Army, has not identified 
any strategic risks with moving a significant amount of the Army's 
command structure concurrently in 2011.
    The Army employs a doctrinal concept of echeloned displacement when 
moving its command and control headquarters in order to ensure 
continuity of mission performance. Normally, a headquarters divides 
into two functional elements (base and advance). While the base element 
continues to operate, the advance element displaces to a new site 
where, after it becomes operational, it is joined by the base element.
    Three Army Commands (ACOMs) will experience the largest impact: 
U.S. Army Forces Command (FORSCOM) to Fort Bragg, NC; Army Materiel 
Command (AMC) to Redstone Arsenal, AL; and Training and Doctrine 
Command (TRADOC) to Fort Eustis, VA. All three ACOMs have planned the 
initial relocation of the advanced elements at different times, 
beginning in FY 2010, and all three base elements join up with their 
respective advanced elements prior to 15 Sep 2011.
    Mr. Ortiz. How does the Department attribute the doubling of costs 
associated with BRAC 2005 implementation from the fiscal year 2006 
submission?
    Mr. Arny. The BRAC 2005 program has seen a $14.9B (71%) cost 
increase over the initial cost estimate ($21.1B). This increase 
represents the combined impact of multiple factors, many of which were 
not included in the cost estimating model (``COBRA''). These factors 
include: inflation; changes in military construction, environmental 
restoration and program management costs not included in COBRA; 
additional Operation and Maintenance to support fact of life cost 
increases; and construction of additional facilities to enhance 
capabilities and/or address deficiencies. This last item--increasing 
the scope above the initial plan--accounts for the overwhelming 
majority of the increase.
    Mr. Ortiz. DOD has indicated full funding for sustainment is its 
goal. OSD has proposed 90 percent funding of the sustainment account in 
fiscal year 2010.
    Does OSD believe that the sustainment model accurately forecasts 
sustainment requirements?
    Mr. Arny. Yes. The Facility Sustainment Model (FSM) is a cost 
estimating tool that planners use to estimate future budget 
requirements for managing the maintenance and repair of the portfolio 
of facilities under their stewardship.
    The Department began developing the FSM in 1999/2000 and published 
for use in 2001 to support development of the 2003 budget request.
    The FSM calculates the theoretical annual sustainment requirement 
for each facility in the official DoD Real Property Inventory (RPI) 
based on the type of facility (i.e., the Facility Analysis Category--
FAC), the physical size of the facility (e.g., the facility square 
footage), and the sustainment cost factor for that type of facility 
(e.g., cost per square foot for a FAC). The model is derived from data 
from the private sector and assumes that all facilities are new.
    Mr. Ortiz. Considering the long-term detrimental effects of not 
fully funding sustainment, what is the risk associated with accelerated 
deterioration?
    Mr. Arny. The risks associated with underfunding sustainment 
translates into increased future repair costs and longer outages to 
make the repairs. Deterioration that is not addressed results in 
reduced service life of the asset and may lead to failure to fully 
support military readiness. Structural deterioration, penetrations in 
the building envelope that allow water intrusion, and aging service 
systems (e.g., electrical or fire protection) each pose life/safety 
concerns. Each structure, component, pavement, utility, etc. has its 
own set of specific risks, including the following representative 
examples:

    <bullet>  Roofs that are not maintained or replaced as scheduled 
develop leaks. Water intrusion into interior building spaces, which can 
often go undetected for a long period of time, creates additional 
damage to interior finishes and potentially to structural members which 
significantly increases the future repair bill beyond the scope of a 
roof replacement. Additionally, storm water on the interior of 
buildings creates hazardous conditions for occupants.

    <bullet>  Pavement crack sealing and surface rejuvenation helps 
prevent potholes. When this maintenance is not performed, it leads to 
road base deterioration and ultimately reduces the service life of the 
pavement. The future costs to rebuild road pavements far exceed the 
cost to provide preventive maintenance to the existing surface.

    <bullet>  Concrete spalling on runways and aircraft parking aprons 
create conditions for foreign object debris (FOD), which can cause 
damage when sucked into aircraft jet engines or when blown out of an 
engine into other aircraft or airfield operators. Aircraft must be 
hauled by tugs over concrete surfaces that have not been maintained to 
minimize the risk of causing injury to personnel or equipment, 
adversely impacting military readiness.

    <bullet>  Buildings with aging building service systems (e.g., 
heating, ventilation, cooling) create poor work environments which 
impact morale, work place efficiencies, and even the health of building 
occupants.

    In conclusion, underfunded sustainment budgets lead to increased 
requirements for more comprehensive repairs in the restoration and 
modernization budgets and, if the repairs are neglected, to increased 
military construction requirements for replacement structures.
    Mr. Ortiz. DOD is on track to privatize 87 percent of the family 
housing units, including 188,000 units by 2010.
    Considering that 36 percent of the awarded privatization projects 
have occupancy rates below expectations, are the housing private 
partners going to be able to continue the long-term investment and 
financial solvency to continue this program? What are the challenges 
that need to be corrected?
    Mr. Arny. The 36 percent figure represents a 2006 GAO report. A 
newer 2008 GAO report indicates the number has decreased to 22 projects 
(24 percent). The large majority of projects in the Military Housing 
Privatization Initiative (MHPI) portfolio are only marginally below 90 
percent and financial solvency and long-term investment is not an issue 
as Debt Service Coverage Ratios (DCRs) generally remain strong. The 
occupancy rate of the overall MHPI portfolio in the December 2008 
Program Evaluation Plan is 92 percent.
    Mr. Ortiz. Compared with the larger outlays required in our 
personnel accounts to support Family Housing Privatization, is the 
overall Family Housing program saving money or has it just moved money 
from a discretionary account to a mandatory funding account?
    Mr. Arny. In the long term, the costs for privatized housing are 
estimated to be roughly 10 percent less than the costs to housing owned 
by the government. Privatization ensures that the sustainment funding 
is made to properly maintain the housing.
    Mr. Ortiz. Does privatization mask the overall cost afforded to 
general/flag officer quarters?
    Mr. Arny. No. Such quarters, commonly referred to as executive 
homes under privatization, are revitalized and sustained in the same 
manner as ordinary privatized family homes. Because private costs 
incurred for executive homes directly reduce funds available for other 
houses, there may be a greater constraint on spending.
    Mr. Ortiz. What is the impact of a deteriorating credit market on 
the Public Private Venture program?
    Mr. Arny. As would be expected, the stagnation in the housing and 
overall financial markets has had an impact on the MHPI program. Market 
forces have led to increased costs and tightening of credit standards. 
Credit spreads relative to the LIBOR (London Inter-bank Offered Rate) 
index are now as much as 300-400 basis points as opposed to 100-150 
basis points previously. Additionally, Debt Coverage Service Ratios 
(DCSR) are now commonly required to be in the 1.4 to 1.5 range versus 
1.15 to 1.2 used for earlier projects.
    This is not a reflection of distrust in MHPI projects but simply a 
lack of liquidity in the market as a whole. Financial institutions 
recognize that MHPI projects continue to have high occupancy and strong 
operation and maintenance performance while continuing to execute their 
renovation and new construction schedules. While our 94 existing 
projects are operating normally, finding financing for new projects 
presents unique challenges.
    Previous tools such as bond insurance and Guaranteed Investment 
Contracts (GICs) have all but disappeared. We continue to work closely 
with private markets to ensure that our excellent track record puts us 
at the head of the line when market liquidity returns. Additionally, we 
are looking at uses of our authorities to replace financial products 
which have disappeared from the market.
    Mr. Ortiz. The Army has programmed $11.2 billion for the Grow-the-
Army initiative and has proposed $4.2 billion in fiscal year 2009 
military construction and $1.3 billion in fiscal year 2010. This 
military construction investment was based on a proposal to increase 
the force structure to include 48 Brigade Combat Teams. Secretary Gates 
recently announced that the Army will grow to only 45 Brigade Combat 
Teams, causing a misalignment in the proposed infrastructure.
    Where will the reduction in three Brigade Combat Teams occur?
    Mr. Calcara. The Brigade Combat Teams will be reduced by one each 
at Forts Carson, Stewart, and Bliss.
    Mr. Ortiz. Considering the change in the overall force posture of 
the Army to 45 Brigade Combat Teams, what fiscal year 2009/fiscal year 
2010 military construction projects are misaligned to support the 
future force?
    Mr. Calcara. The Army is currently conducting a gap analysis to 
determine this and will provide results to committee staff prior to 
conference.
    Mr. Ortiz. Considering the Army end strength to support Grow the 
Army has not changed, what additional Combat Support/Combat Service 
Support elements are required to support the Grow-the-Army initiative? 
Where will these additional elements be homebased?
    Mr. Calcara. The Army does not intend to build additional Combat 
Support/Combat Service Support elements to support the Grow the Army 
Initiative. Due to wartime operational demands, the Army has more 
requirements for Soldiers than the Active Component 547,400 Army can 
fill. By removing three Brigade Combat Teams (BCTs) from the program in 
fiscal year 2011, the Army is estimating the removal of approximately 
10,300 requirements, allowing those associated Soldiers to be used to 
offset requirements existing elsewhere in the force. In fiscal year 
2011, this will allow the Army to improve manning levels of next-to-
deploy units much sooner than we are able. These three BCTs do not 
exist until fiscal year 2011, and any savings from their removal cannot 
be used to improve manning fill in the near term.
    Mr. Ortiz. The Army has reported that it has 10,000,000 square feet 
of relocatable space to support end-strength growth.
    What is the Army's plan to discourage future use of relocatable 
spaces?
    Mr. Calcara. Garrison Commanders are cautioned to use the 
relocatable authority only as a last resort. Relocatable buildings will 
be used at about a 50 percent ratio to their real property counterparts 
except for certain types of uses such as barracks and medical 
facilities. The Army must use the relocatable authority wisely to 
bridge the gap between mission requirements and availability of real 
property facilities. The Army is to look at alternate options to 
provide the needed space. The order of precedence is full utilization 
of available real property, including World War II wooden structures 
where economic considerations and good engineering judgment dictate, 
construction of temporary facilities when the total funded cost does 
not exceed $750,000, and short-term leased space off post. The last 
option is to use relocatable buildings.
    Mr. Ortiz. How does the Army intend to address the 10,000,000 
square feet of existing relocatable, temporary space at various Army 
installations?
    Mr. Calcara. The Army is moving aggressively to eliminate the need 
for relocatable buildings. Over the next two years, 16 percent of the 
relocatable inventory will be replaced with permanent military 
construction (MILCON) projects currently under construction. We 
anticipate an additional 66 percent will be replaced with MILCON 
projects by fiscal year 2015, 13 percent are awaiting programming, and 
the remaining 5 percent satisfy temporary surge requirements and do not 
require permanent construction.
    Mr. Ortiz. The Army has reported that it has a 5,000,000-acre 
training deficit across multiple installations.
    How does the Army intend to address the existing deficit in 
training space?
    Mr. Calcara. The purpose of the Department of the Army's Range and 
Training Land Strategy (RTLS) is to address the existing land deficit 
in training space facing the Army. The RTLS prioritizes Army training 
land investments and optimizes the use of all Army range and training 
land assets. The RTLS also provides a long-range plan for the Army to 
provide the best range infrastructure and training land to units.
    The RTLS was developed in five phases. The first phase was to 
inventory current Army training assets. The second phase examined land 
values, parcel ownership, environmental constraints, environmental 
requirements, and population trends from public records to identify the 
best opportunities for training land acquisition and buffering. The 
third phase analyzed available land data to recommend short-term and 
long-term opportunities based on Army priorities. The RTLS process is 
designed to ensure that Army planners continually reevaluate land 
requirements against the Army Campaign Plan (ACP) and current Army 
priorities. The fourth phase was the establishment of planning 
objectives and the identification of installations where land 
acquisition supports the ACP. The fifth and final phase was to evaluate 
public attitudes and provide outreach support for specific land 
acquisitions.
    The deliberate phases of the RTLS provide the framework for the 
Army to select the most appropriate course of action to address 
training land shortfalls at specific Army installations. The options 
that the Army can pursue to overcome the 4.5 million acre training land 
deficit include: focused management to maximize existing land holdings, 
buffering through partnerships, utilization of other Federal lands 
where possible, and land acquisition.
    Mr. Ortiz. If the Army is unable to acquire the documented deficit 
in real estate, will this adversely impact military readiness? How?
    Mr. Calcara. If the Army is not able to address the documented 
deficit in real estate through the Range and Training Land Strategy 
(RTLS), there will be impacts to training capability. Commanders may 
have to employ work-arounds to accomplish required training events. 
While work-arounds can be successfully employed to address some 
training capability shortfalls, long-term use of major work-arounds can 
have a negative impact on training and unit capability. Significant 
training land shortfalls require units, particularly at the brigade 
level, to develop work-arounds that train units without stressing their 
full operational capability. This creates the risk of developing bad 
habits in training and imbeds false expectations as to true battlefield 
conditions.
    Army training standards are based on lessons learned in combat and 
tactical wisdom purchased at great human cost. Every work-around is 
essentially a trade-off that makes training less realistic than the 
conditions they will face in a combat situation. This is a particularly 
significant challenge with respect to operating over large operational 
areas, employing manned and unmanned aviation, conducting logistics 
operations, and using state-of-the-art communication and intelligence 
collection and dissemination systems that require unfettered access to 
the electro-magnetic spectrum.
    Training capability will be impacted if the Army is unable to 
address training land shortfalls. Unit training readiness levels are 
determined by commanders. Each commander must assess the degree to 
which work-arounds affect the unit's operational capability.
    Mr. Ortiz. The Army initially indicated that it intended to acquire 
more than 400,000 acres of land to support the existing Pinon Canyon 
range. The Army has since reduced its requirements to 100,000 acres.
    Why has the Department vacillated on the acreage required to 
support training in southeastern Colorado?
    Mr. Calcara. The Army's doctrinally based requirement for at least 
418,577 additional acres of training land has never been reduced, and 
was not challenged or questioned in the recent Government 
Accountability Office (GAO) Report GAO-09-171. In May 2006, Fort 
Carson's Department of the Army-approved Land Use Requirements Study 
(LURS) validated the need for an additional 418,577 acres of training 
land at Pinon Canyon Maneuver Site (PCMS) to support training for 
Soldiers stationed at Fort Carson. In February 2007, the Office of the 
Secretary of Defense (OSD) approved the Army's request for a waiver to 
pursue land acquisition for up to 418,577 acres at PCMS. The LURS and 
OSD approval were completed before the Grow the Army decision was 
complete.
    At the request of Congress, the Army conducted additional review 
and analysis of the feasibility of acquiring 418,577 acres and 
determined that an acquisition of 100,000 acres was feasible and would 
provide the greatest training benefit, at the lowest cost, the lowest 
acreage footprint, and with the fewest number of affected landowners 
and communities. While the acquisition of 100,000 acres, alone, 
addresses less than one-quarter of the doctrinal requirement to fulfill 
the training land shortfall at Fort Carson/PCMS, it would provide 
operational benefits and enhanced training for Soldiers and units 
stationed at Fort Carson. If combined with the existing PCMS acreage, 
this expanded training area would significantly enhance the Army's 
overall capability for maneuver training. Specifically, this area would 
provide sufficient space to allow a Heavy Brigade Combat Team and an 
Infantry Brigade Combat Team to conduct simultaneous combat training at 
PCMS.
    Mr. Ortiz. If the Department is unable to acquire additional land 
in the Pinon Canyon region, will this adversely impact the stationing 
plan at Fort Carson?
    Mr. Calcara. The Grow the Army (GTA) Stationing Plan, published in 
2007, directed the stationing of two Infantry Brigade Combat Teams 
(IBCTs) at Fort Carson. This decision was based on a stationing 
analysis and environmental assessment that analyzed growth capacity, 
power projection, training and well-being. The Army has a shortfall of 
training and maneuver land based on doctrinal and operational 
requirements, totaling approximately 4.5 million acres in the United 
States. In fact, almost every U.S.-based installation has a shortfall 
in maneuver training land. However, most installations experiencing 
training land shortfalls do not have any feasible opportunity to 
rectify the situation through land acquisition. Encroachment at most 
installations has created population densities, environmental issues, 
and escalating land values, rendering significant land acquisition 
efforts impossible. Fort Carson/Pinon Canyon Maneuver Site (PCMS) is 
one of the very few feasible opportunities the Army will ever have to 
address this issue through land acquisition.
    The shortfall in maneuver training land at Fort Carson/PCMS (as 
well as at other installations) has forced the Army to alter its 
training by utilizing work-arounds that change the exercises and 
scenarios in ways that make them less realistic. In short, these work-
arounds do not stress units to their full operational capabilities, and 
run the risk of providing false expectations for units when they 
experience real combat.
    Because the land acquisition process often takes many years to 
complete, and because of the need to complete the Grow the Army 
Stationing Plan in the shortest possible time, the Army made a decision 
not to link additional land at Pinon Canyon, with additional GTA BCTs.
    Prior to the GTA stationing decision, Fort Carson had a validated 
requirement shortfall of maneuver training land of approximately 
418,000 acres. Stationing BCT #47 would have exacerbated the shortfall 
to over 500,000 acres. The cancellation of BCT #47 brings the shortfall 
back to approximately 418,000 acres.
    Mr. Ortiz. Please explain how the Department is planning to acquire 
land and specifically, how eminent domain is planning to be used.
    Mr. Calcara. In some circumstances, the Army will pursue the 
purchase of land to mitigate training land deficiencies. The current 
Army position is to purchase land only where it is feasible, 
operationally sound, and compatible with environmental conditions and 
requirements. Additionally, there are no current plans to use eminent 
domain condemnation authority to acquire land from unwilling property 
owners.
    Mr. Ortiz. The Marine Corps has requested $1.2 billion in the 
budget request for 2010 to support an end strength increase of 27,000 
marines.
    Will infrastructure be built in time to support the arrival of the 
new 27,000 Marines?
    Secretary Penn. The target date for achieving 202,000 was FY 2011. 
However, the Marine Corps attained its 202,000 end-strength goal in 
2009. The Marine Corps infrastructure development plan remains on track 
and we are prepared to support the accelerated growth in end strength 
with the continued implementation of our interim solutions including 
extended use of temporary facilities, slowing down of demolition, more 
extensive use of BAH and assignment standards.
    Mr. Ortiz. What alternatives are the Marine Corps pursuing to 
accommodate growth?
    Secretary Penn. Due to the long lead time for permanent facilities, 
units may be in temporary facility solutions for 2-4 years after unit 
standup. Temporary facility solutions include: doubling up existing 
facilities, slowing planned building demolition for use in the short 
term, and relocatable facilities (trailers, sprung shelters and pre-
engineered buildings).
    The FY 2009 Military Construction plan for the Marine Corps 
includes accelerated enablers common to 202,000 increased footprint--
utilities systems, family housing, barracks, training ranges, etc. 
($1.4 billion). The Marine Corps military construction plan ensures 
quality of life for our rapidly expanding force. Unit specific 
construction begins in FY 2010 after the expected completion of the 
National Environmental Policy Act (NEPA) review.
    For Marine Corps Bachelor Housing, until additional barracks are 
constructed, the Marine Corps has increased authorization of Basic 
Allowance for Housing (BAH) for senior Non-Commissioned Officers (NCOs) 
to allow them to live off-base and has taken steps to temporarily 
billet Marines in surge/overflow barracks during renovations until new 
barracks come on-line. Temporary trailers/modular facilities are also 
being used to support initial training/accession pipeline throughput 
requirements.
    For Marine Corps Family Housing, the Marine Corps plan for 
addressing the additional family housing requirement due to Growing the 
Force relies on the communities near the military installations as the 
primary source of housing. Through the conduct of housing market 
analyses, housing for the additional families associated with our 202K 
growth has been programmed where we've determined that the local 
community cannot support the housing needs of our military members. 
Almost 5,000 additional homes have been programmed in the current FYDP 
to support Marine Corps family housing requirements.
    Mr. Ortiz. The Navy has taken steps to secure real estate interests 
in areas where aviation accidents are most likely to occur. However, 
there remains significant real estate that could pose a threat to the 
local community because of aviation operations.
    What steps are the Navy and Marine Corps taking to limit aviation 
accidents to the local community?
    Secretary Penn. The Department takes a proactive approach to 
maximizing aviation safety in and around our air installations using a 
combination of airfield safety regulations, operational alternatives/
procedures, and Air Installation Compatible Use Zones (AICUZ) studies.
    Each station evaluates operational alternatives and establishes 
procedures to reduce accident potential, e.g., flight track 
modifications, altering hours of operation, changes in pattern 
altitudes, etc.
    Finally, the Department of Navy has a very aggressive AICUZ program 
focused on air operations and land use compatibility in high noise and 
safety zones. The DoN is continually evaluating our training 
requirements and seeking alternatives to mitigate noise and safety 
concerns while preserving our mission capabilities. Through the AICUZ 
Program, installations work with local officials to foster compatible 
land use development though land use controls such as zoning. 
Additionally, most Navy and Marine Corps installations have a Community 
Plans and Liaison Officer (CPLO) on staff to work with neighboring 
communities to address their concerns.
    Mr. Ortiz. Does the Navy and Marine Corps have a program for each 
installation that limits aviation incidents to the local community?
    Secretary Penn. The Department of Navy has a very aggressive Air 
Installations Compatible Use Zones (AICUZ) program focused on air 
operations and land use compatibility in high noise and safety zones. 
The DoN is continually evaluating our training requirements and seeking 
alternatives to mitigate noise and safety concerns while preserving our 
mission capabilities. Through the AICUZ Program, installations work 
with local officials to foster compatible land use development though 
land use controls such as zoning. Additionally, most Navy and Marine 
Corps installations have a Community Plans and Liaison Officer (CPLO) 
on staff to work with neighboring communities to address their 
concerns.
    Mr. Ortiz. The Marine Corps has proposed a realigned III Marine 
Expeditionary Force command structure that relocates the Marine Corps 
general officers to Guam with little command structure remaining in 
Okinawa.
    How does the proposed command structure enhance the III Marine 
Expeditionary Force capabilities?
    Secretary Penn. Guam, as the westernmost U.S. territory in the 
Pacific, does provide strategic flexibility and freedom of action to 
support the Range of Military Operations including Theater Security 
Cooperation activities. III MEF forces are currently spread between 
Okinawa, mainland Japan and Hawaii, while additional forces deploy to 
the region from CONUS as part of the Unit Deployment Program. III MEF 
major subordinate commands, 1st MAW, 3MARDIV and 3MLG are all presently 
located on Okinawa and the current proposed command structure has all 
three subordinate headquarters moving to Guam. Operational 
relationships between these adjacent units will continue to remain 
operationally effective after they relocate to Guam. Additionally, the 
current plan calls for Marine Corps Bases Butler Headquarters to remain 
on Okinawa.
    Mr. Ortiz. The Marine Corps is programmed to depart a heavily 
encroached Marine Corps Air Station at Futenma, Okinawa, and move to a 
new location on Okinawa at Camp Schwab. The Japanese construction 
proposal for the Futenma Replacement Facility, embedded in the 
previously agreed U.S./Japanese Defense Posture Review Initiative, has 
several safety-of-flight issues that Naval Air Systems Command would 
not waive. Opening up negotiations with the Japanese on this issue may 
necessitate renegotiations on other provisions of the overall 
agreement.
    Is the Marine Corps prepared to accept the risk associated with a 
Futenma Replacement facility that will be constructed with safety-of-
flight issues?
    Secretary Penn. The Department of Navy is committed to the safety 
of both aircraft operations and the community in which our aircraft 
operate. As such, we will actively seek and support measures to 
eliminate deviations from criteria as our bilateral planning processes 
continue.
    Mr. Ortiz. The Department of Defense has indicated that training 
associated with the realigning force from Okinawa should be funded by 
Government of Japan and U.S. Department of Defense funds. However, 
transient Marine training enhancements would be funded by the Marine 
Corps. This training enhancement may exceed $4 billion.
    What is the projected funding requirement for transient Marines?
    Secretary Penn. Training for all DoD forces in the Pacific, 
including transient Marine forces, is being studied in the Quadrennial 
Defense Review (QDR). Any future programs resulting from the QDR to 
expand training capacity in the Pacific theater, to include expansion 
of training capacity in the Commonwealth of the Northern Mariana 
Islands (CNMI) for Guam-based and transient Marine forces, will be 
addressed in a separate program of record and will be evaluated in a 
future Environmental Impact Statement. Projected costs for additional 
training capacity in the Pacific will be developed following the QDR.
    Mr. Ortiz. When does the Department anticipate expanding the 
Northern Marianas training capacity to support Marine training?
    Secretary Penn. The Department is studying alternatives to meet the 
Marine Corps Core Competency and associated collective training and 
MAGTF readiness requirements as well as joint training requirements in 
the Pacific in the current Quadrennial Defense Review (QDR). Programs 
resulting from the QDR, to include expansion of training capacity in 
the Commonwealth of the Northern Mariana Islands, will be evaluated in 
a future Environmental Impact Statement and established in a separate 
program of record. Delivery of these capabilities is expected to 
coincide with completion of other facilities to support the arrival of 
relocating Marines.
    Mr. Ortiz. The Navy has indicated that alternative CVN berthing is 
an important consideration in managing CVN assets.
    What is the risk of a catastrophic event damaging Atlantic Coast 
CVN homeporting facilities, and how might that risk be altered by 
homeporting a CVN at Mayport?
    Secretary Penn. It is difficult to quantify the likelihood of a 
catastrophic event, natural or man-made, in the Hampton Roads area 
(currently the only Atlantic Coast CVN homeport). The Navy must plan to 
address the maintenance and repair infrastructure requirements for CVNs 
as well as the operational considerations. Homeporting a CVN at NAVSTA 
Mayport is the hedge against the unacceptable risk of having all five 
Atlantic Fleet CVNs homeported in one area. The risk of a catastrophic 
event in the Hampton Roads area is not altered by having a second CVN 
homeport, the risk is mitigated and provides the assurance that the 
Navy will be able to meet its national defense obligations.
    Mr. Ortiz. Are the costs associated with homeporting a CVN at 
Mayport worth the benefits in terms of hedging against the risk of a 
catastrophic event damaging Atlantic Coast CVN homeporting facilities?
    Secretary Penn. If a catastrophic event were to occur in the 
Hampton Roads area, the only CVN Atlantic Coast homeport and 
maintenance/repair facility, there would be an operational impact on 
the CVN force. The costs would need to be balanced against the lost 
operational time and capability if Atlantic Fleet CVNs were required to 
transit 12,700 nautical miles to a Pacific Fleet maintenance and repair 
facility if there was catastrophic damage to the facility in the 
Hampton Roads area.
    It is prudent to maintain a second CVN port facility on the East 
Coast just as the Navy does on the West Coast to ensure there will be 
no gap or lapse in Navy's ability to meet its Title 10 requirements and 
maintain seamless CVN operation.
    Mr. Ortiz. The Department has indicated that requirements 
associated the nuclear aircraft carrier basing on the East Coast will 
be determined in the context of the QDR.
    In your estimation, how likely is it that the QDR will be able to 
make this type of explicit decisions in time to include the fiscal year 
2011 budget submission?
    Secretary Penn. The QDR is not due to report out until early 2010; 
however we do expect some of the specific issues to be briefed to the 
Secretary of Defense for final approval prior to the written report. 
Budgetary adjustments, if any, will be made at the appropriate time.
    Mr. Ortiz. How does the QDR impact the fiscal year 2010 budget 
request to include $75 million in Mayport improvements, which could 
also be used to homeport a CVN at Mayport?
    Secretary Penn. The proposed FY 2010 budget request includes $46.3 
million for channel dredging in Mayport. Additionally, the FY 10 budget 
requests $29.7 million for Charlie Wharf improvements at Mayport. These 
improvements are necessary since Charlie Wharf is the primary 
ammunition loading wharf for ships homeported in Mayport, and are not 
associated specifically with an alternate carrier facility.
    The Navy must perform maintenance dredging at NAVSTA Mayport every 
two years. In FY 2010, the Navy is requesting MILCON funding to dredge 
the channel to a depth adequate to allow a CVN to enter the port 
without limitation. This would provide Navy a port in which a CVN can 
berth with adequate support and force protection.
    Mr. Ortiz. The fiscal year 2010 Air Force MILCON budget request 
contains $1.0 billion. This limited infrastructure investment is 
causing significant inefficiencies locally and accelerating degradation 
of assigned aviation assets. Examples include: new F-22s arriving 
without hangars and other support infrastructure at Elmendorf AFB, AK, 
and trainers remaining in warehouses until the appropriate supporting 
infrastructure is programmed and built.
    Why did Air Force not program infrastructure in time to support 
valuable aviation assets?
    Ms. Ferguson. With regards to infrastructure, there is no single 
``most'' critical area of risk. The risk in infrastructure the Air 
Force has taken in facilities and infrastructure is broad and varies 
according to the needs of the entire AF. We balance this risk across 
all combatant commands, major commands (MAJCOM), and installations by 
building our investment program utilizing the highest priority projects 
with wing and MAJCOM commanders' input. The need for MILCON investment 
is across all facility types, including operational, training, 
maintenance hangars, research and development, and quality of service. 
With a limited and fixed top line, the AF must determine priorities 
using investment impact data and take risk where necessary. MILCON 
projects included in the program are based on project merit and meeting 
Air Force priorities.
    Mr. Ortiz. The Air Force has proposed to defer investments in 
facilities sustainment and restoration. The Air Force is requesting 
funds necessary to support 59 percent of the required facility 
recapitalization.
    Why did the Air Force elect to take risk in the facility accounts 
and delay critical restoration and modernization activities?
    Ms. Ferguson. Modernizing the Air Force's aging aircraft fleet is 
our toughest challenge; in order to recapitalize and modernize the Air 
Force must take risk in some areas. Because the Air Force invested 
heavily in infrastructure in the past, it was decided that risks in our 
facility and infrastructure accounts were acceptable for a short 
duration.
    Mr. Ortiz. What is the long-term effect of a delay in funding 
restoration and modernization activities?
    Ms. Ferguson. Our current risk in facilities investment has 
resulted in a $10.2B backlog in requirements and will create additional 
future bow-waves. The effects of delays in Restoration and 
Modernization will require investments in facility sustainment well 
above modeled requirements. The Air Force views installations as 
critical war-fighting platforms that provide a core Air Force 
expeditionary combat capability. The AF fully understands the risk 
taken in our modernizing our facilities and infrastructure cannot 
jeopardize our ability to conduct critical operations from our 
installation weapon systems.
    Mr. Ortiz. The Air Force has indicated that it intends to determine 
four JSF operational bases and one additional training base to support 
JSF in the next two years.
    How will encroachment and increased noise associated with the JSF 
variant impact the decision to base aviation assets?
    Ms. Ferguson. The Secretary of the Air Force directed an 
``Enterprise-Wide Look'' (EWL) for the beddown of the Joint Strike 
Fighter (JSF) to ensure the Air Force perform an objective review of 
all potential F-35 operational and training basing options. 
Additionally, the Secretary recently approved the basing criteria for 
the JSF EWL, which include such factors as airspace and ranges; 
weather; facilities; runways and ramps; environmental and cost factors; 
logistics support; and availability of support facilities such as 
housing, medical and child care. The Air Force's plan is to make the 
criteria available through a briefing to all interested members of 
Congress and their staffs, which we expect to provide in August 2009.
    Mr. Ortiz. The Air Force has taken steps to secure real estate 
interests in areas where aviation accidents are most likely to occur. 
However, there remains significant real estate that could pose a threat 
to the local community because of aviation operations.
    What steps is the Air Force taking to limit aviation accidents to 
the local community?
    Ms. Ferguson. One of our main approaches to limiting aviation 
accident impacts to the local community is to encourage compatible 
development in the areas with the greatest history of aircraft 
accidents occurring around the airfield. The areas with the greatest 
accident potential is the runway, followed by the clear zone, Accident 
Potential Zones (APZs) I and APZ II at the end of Air Force 
installation runways. Air Force installations continually work with 
local communities to limit development to low densities in APZs I and 
II. The Air Installations Compatible Use Zones (AICUZ) program 
discourages land uses that concentrate large numbers of people in a 
single area, e.g. churches, schools, auditoriums, residential, and 
manufacturing that involves flammable materials from being located in 
these two zones. Low intensity land uses such as some light industrial, 
wholesale trade, some business services, recreation, agriculture, and 
open space, mineral extraction can be compatible in APZ I if they don't 
create emissions that create visibility problems or attract birds. 
Compatible land uses for APZ II include all the ones compatible in APZ 
I plus a few more types of manufacturing, low intensity retail trade 
and low density single family residential (1-2 dwelling units per 
acre).
    The installations and local communities can also pursue 
encroachment partnering projects within APZ and seek funding through 
Office of the Secretary of Defense's Readiness and Environmental 
Protection Initiative (REPI) program.
    Mr. Ortiz. Does the Air Force have a program for each installation 
that limits aviation incidents to the local community?
    Ms. Ferguson. Yes. The Air Force conducts its aviation mishap 
prevention program under policy, guidance and oversight issued by the 
Air Force Chief of Safety. At the direction of the Air Force Chief of 
Safety every installation responsible for a flying mission maintains a 
flight safety program with the over-arching goal of preventing aviation 
mishaps. An important part of that goal includes preventing mishaps on 
and around installations where Air Force aircraft operate.
    To accomplish that goal, Air Force installations incorporate mishap 
prevention programs in concert with community involvement, partnering, 
and information sharing. Some examples include:

    Mid-Air Collision Avoidance (MACA) programs

    -  Base level safety office programs required by Air Force 
regulation

    -  Community involvement is usually high

    -  Includes comprehensive web sites for most bases who share 
airspace with local flying communities/airports/FBOs

        -  Can involve road-shows to local airports/flying orgs

        -  Bases are required to keep and update a MACA Pamphlet for 
        the local community on a regular basis

                <all>  Usually contains basic information about the 
                military base traffic pattern, procedures for passage, 
                ATC radar codes, radio frequencies, etc.

    -  Very helpful for local aviators who may or may not have in-depth 
knowledge on the local military operations

    Bird Aircraft Strike Hazard (BASH) programs

    -  Each base develops its own procedures depending on local hazards 
in accordance with Air Force safety policy

    -  Includes risks from all wildlife, not just birds

    -  Many utilize local outreach programs to keep problem species 
from public/private land surrounding bases. For example, with landowner 
permission, McConnell Air Force Base utilizes a border collie to harass 
geese on private land around.

    -  Local threat information is also available publicly via world 
wide web (Avian Hazard Assessment System [AHAS] and Bird Avoidance 
Model [BAM] web sites, which use historical data and Next Generation 
Radar [NEXRAD] data to assess strike hazards for any particular time 
period)

                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE
    Mr. Abercrombie. The Department of Defense has indicated realigning 
forces from Okinawa should be funded by Government of Japan and DOD 
funds. What assurances do we have that U.S. companies will receive 
part, or all of the MILCON to construct the housing for the Marines on 
Guam as opposed to outsourcing these requirements to foreign companies 
?
    Mr. Arny. US MILCON projects on Guam will have all of the same 
protections that every other US MILCON project has that are outlined in 
Title 10 and the Federal Acquisition Regulations (FAR). These govern 
our actions and we must follow them. Projects funded with direct cash 
contributions from the Japan will be openly competed on a fair and 
level playing field and administered by the US Naval Facilities 
Engineering Command (NAVFAC). NAVFAC will administer these projects in 
accordance with the FAR. Regarding contractor housing, DoD and GovGuam 
are determining strategies for mitigating impacts and opportunities for 
long-term benefits to Guam. Contractors competing for work will be 
evaluated on ability to address workforce impacts.
    Mr. Abercrombie. Costs associated with Marine training enhancements 
on Guam and the Northern Marianas would be funded by the Marine Corps. 
This training enhancement may exceed $4 billion. What is the projected 
funding requirement for transient Marines? When does DOD anticipate 
expanding the Northern Marianas training capacity to support Marine 
training?
    Mr. Arny. Training for all DoD forces in the Pacific, including 
transient Marine forces, is being studied in the Quadrennial Defense 
Review (QDR). Any future programs resulting from the QDR to expand 
training capacity in the Pacific theater, to include expansion of 
training capacity in the Commonwealth of the Northern Mariana Islands 
(CNMI) for Guam based and transient Marine forces, will be addressed in 
a separate program of record and will be evaluated in a future 
Environmental Impact Statement. Projected costs for additional training 
capacity in the Pacific will be developed following the QDR.
    Asia-Pacific Training as a whole is a Directed Issue under the 
current Quadrennial Defense Review (QDR). Several courses of action are 
currently under review to determine how best to ensure adequate joint 
and combined training capacity to meet the broad spectrum of training 
requirements in the region. A recommendation will be made as part of 
the overall QDR process.
    Mr. Abercrombie. The nation's four public shipyards are in 
desperate need of modernization to be able to maintain a 21st century 
fleet. Is there a capital investment/modernization plan for the four 
public yards? If not, how is the Navy planning to ensure continued 
investment to maintain and modernize the shipyards? The Fiscal Year 
Defense Plan (FYDP) has not been released yet pending the Quadrennial 
Defense Review (QDR), but in the interim, public shipyards such as 
Pearl Harbor Naval Shipyard in my district, are dealing with cost 
growth on old project plans and antiquated repair facilities that are 
insufficient to address modern requirements. What does the Navy plan to 
do about this? Push projects further out in the FYDP?
    Secretary Penn. The Naval Sea Systems Command, the Navy's technical 
authority for public shipyards, maintains a shipyard modernization plan 
for the Naval Shipyards which acts to guide infrastructure investments. 
Leveraging this plan and other locally generated requirements, specific 
projects are developed at the installation level and validated 
regionally. The Navy assesses each prospective MILCON project through a 
structured approach aligned to Navy priorities. This objective 
assessment leads to a prioritization of all MILCON requirements and 
forms the basis of the Navy MILCON program.
    Shipyard projects are evaluated and prioritized in the same manner 
as, and with, all Navy MILCON requirements. Every year we review the 
entire shipyard recapitalization program to ensure it meets or exceeds 
the minimum capital investment requirements of U.S.C. Title 10 Section 
2476 (Minimum capital investment for certain depots). The FY10 
President's Budget Submission included two MILCON projects valued at 
$296 million in support of Norfolk Naval Shipyard and Puget Sound Naval 
Shipyard and Intermediate Maintenance Facility, comprising 27% of the 
total Navy MILCON program.
    Recapitalizing the Public Shipyards is a long-term challenge that 
the Navy will continue to keep at the forefront as we work within the 
current limited fiscal environment.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. Ms. Ferguson, you discussed in the hearing that 
Secretary Donley and General Schwartz requested a re-look at the basing 
process for the Joint Strike Fighter.
    Part 1: Why did the Air Force decide that the criteria guiding the 
selection of bases was insufficient and required a ``re-look?''
    Part 2: Can you please discuss some of the changes you expect to 
see as a result of this re-look?
    Part 3: How much additional time will this ``re-look'' add to the 
final selection decisions?
    Part 4: Will the committee have an opportunity to review the new 
criteria before final selection decisions are finalized?
    Ms. Ferguson. Prior to the fall of 2008, our Major Commands de-
centrally managed and executed our basing process. Last fall, Secretary 
Donley directed that these basing decisions take place at the 
Headquarters Air Force level and established the Air Force Senior 
Basing Executive Steering Group (SB-ESG) to oversee these actions and 
ensure a standard, repeatable process in determining overall AF basing 
opportunities. Additionally, Secretary Donley directed an ``Enterprise-
Wide Look'' (EWL) for the beddown of the Joint Strike Fighter (JSF) to 
ensure the Air Force perform an objective review of all potential F-35 
operational and training basing options. To implement Secretary 
Donley's new strategic basing process, the SB-ESG worked with Air 
Combat Command (ACC), designated as the lead command for the JSF 
beddown, and Air Education and Training Command (AETC) to finalize 
basing criteria for both operational bases and for training bases in a 
way that recognizes their differing requirements. Secretary Donley 
recently approved the draft criteria for the JSF EWL, which include 
such factors as airspace and ranges; weather; facilities; runways and 
ramps; environmental and cost factors; logistics support; and 
availability of support facilities such as housing, medical and child 
care. The Air Force's plan is to make the criteria available through a 
briefing to all interested members of Congress and their staffs, which 
we expect to provide in August 2009. Finally, it is the Air Force's 
intent to complete the Environmental Impact Statements and basing 
decisions in a manner that supports the current JSF aircraft delivery 
schedule.
    Mr. Franks. Ms. Ferguson, what implications does the Air Force's 
new Combat Air Forces Restructuring have on your BRAC activities? 
Specifically at bases where the drawdown of legacy aircraft is 
accelerated and a future mission designation, like the Joint Strike 
Fighter, is yet to be determined?
    Ms. Ferguson. The Air Force's new Combat Air Forces Restructuring 
should have no adverse affect on actions required to complete BRAC 
2005. MILCON projects associated with BRAC 2005 at Combat Air Forces 
Restructuring-affected bases are already in progress. At bases where 
the drawdown of legacy aircraft are accelerated, and future missions 
have not been designated, there is the potential for unused excess 
capacity.
    Mr. Franks. Ms. Ferguson, you mention in your testimony several 
large energy projects that are being touted as a huge success for the 
U.S. Air Force. Specifically you mention, ``photovoltaic (PV) solar 
array at Nellis Air Force Base, Nevada, the largest PV array in North 
America, generated 57,139 megawatt-hours in FY2008, and saving 
approximately $1 million per year.'' When will these projects 
transition from a ``great idea or initiative'' to something the Air 
Force mandates at locations with very similar environmental conditions, 
like bases in Arizona.
    Ms. Ferguson. The Air Force is continually reviewing opportunities 
to use the available renewable resources for energy projects to improve 
the energy security at its installations, whether through enhanced use 
lease authority or other forms of public-private partnership. 
Capitalizing on development opportunities for large energy projects 
requires leadership, partnering with industry, and a cogent strategic 
approach. One of the pillars of the Air Force's infrastructure energy 
strategic plan is to promote the development of renewable and 
alternative energy for use in facilities and ground vehicles and 
equipment. Opportunities to develop renewable and alternative energy in 
any given locale are driven by four primary factors:

    <bullet>  Availability of renewable resources

    <bullet>  Utility and commodity cost

    <bullet>  Federal, state and local tax incentives, rebates, and 
mandates

    <bullet>  Deployment and sustainability

    The Air Force identifies and reviews executable projects each year 
to ensure the best investment opportunities are identified. Projects 
are addressed on a case-by-case basis to ensure that the project 
provides the best opportunity to fulfill the Air Force mission and meet 
its goals.

                                  <all>

</pre></body></html>
